<html>
<title> - STATE OF THE COAST GUARD: ENSURING MILITARY, NATIONAL SECURITY, AND ENFORCEMENT CAPABILITY AND READINESS</title>
<body><pre>[Senate Hearing 115-63]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-63

                   STATE OF THE COAST GUARD: ENSURING
                    MILITARY, NATIONAL SECURITY, AND
                  ENFORCEMENT CAPABILITY AND READINESS

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      

         
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-595 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="096e7966496a7c7a7d616c6579276a666427">[email&#160;protected]</a>                             
                             
                           


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2017...................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     3
    Prepared statement...........................................     4
Statement of Senator Inhofe......................................    13
Statement of Senator Cantwell....................................    15
Statement of Senator Wicker......................................    17
Statement of Senator Hassan......................................    18
Statement of Senator Schatz......................................    20
Statement of Senator Nelson......................................    21
    Prepared statement...........................................    23
Statement of Senator Cruz........................................    24

                               Witnesses

Admiral Paul F. Zukunft, Commandant, U.S. Coast Guard............     5
    Prepared statement...........................................     7

                                Appendix

Response to written questions submitted to Admiral Paul F. 
  Zukunft by:
    Hon. Bill Nelson.............................................    31
    Hon. Maria Cantwell..........................................    32
    Hon. Amy Klobuchar...........................................    36
    Hon. Richard Blumenthal......................................    36
    Hon. Brian Schatz............................................    37

 
                   STATE OF THE COAST GUARD: ENSURING
                   MILITARY, NATIONAL SECURITY, AND
                  ENFORCEMENT CAPABILITY AND READINESS

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Peters, Inhofe, 
Cantwell, Wicker, Hassan, Schatz, Nelson, Cruz, Booker, 
Fischer, Gardner, and Young.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The hearing will come to order. The 
Subcommittee is meeting today to review the state of current 
Coast Guard missions, manpower, resources, acquisitions, and 
budgetary needs. And I'm honored to be here with my colleagues 
on both sides of the aisle. This is my first hearing as the 
Chairman of the Subcommittee with my colleague and friend, 
Senator Peters, as the Ranking Member, and I look forward to 
working with him and members of both sides of the aisle here I 
think on an issue that is very bipartisan, and that's the U.S. 
Coast Guard.
    As you know, Admiral Zukunft, our main witness today, I 
certainly have a great appreciation for the work the Coast 
Guard does in Alaska and for the country. And it's an honor to 
have you here, and it's an honor for you to represent the men 
and women of the Coast Guard, and please, please pass on to 
them the appreciation from this committee on the exceptional 
work that they're doing.
    Maritime security and safety are issues of national 
security and are central to economic prosperity. Global 
stability is dependent on safe and unfettered access to the 
maritime domain. Congress has given the Coast Guard a wide 
range of missions, from search and rescue, icebreaking, and 
marine environmental protection to port security, drug 
interdiction, international crisis response, and readiness to 
support the Department of Defense in its operations.
    With such an integral role in national and global 
stability, it should not be overlooked by members of this 
committee or by the Trump administration that the Coast Guard 
is the fifth branch of the armed services. By securing our 
maritime boarder, the Coast Guard acts as the front line of 
defense for our homeland.
    The Coast Guard combats transnational criminal 
organizations at the points of origin by pushing cutters and 
resources to intercept drugs and human smugglers off of foreign 
shores prior to threats even getting close to our shores. The 
Coast Guard supports U.S. forces in Iraq and Afghanistan. And 
that is why today I would like the members of this committee, 
many of whom I also serve with on the Armed Services Committee, 
to think about these issues as much as you would from a 
Commerce Committee perspective as well as an Armed Services 
Committee perspective.
    As the Coast Guard balances the wide range of public 
safety, stewardship, and national security missions, these 
missions do not remain static. Challenges for the Coast Guard, 
threats to our Nation, are emerging whether those are 
terrorism, drug trafficking in the Caribbean Basin and Central 
America, and overseas contingency operations continually demand 
more of the Coast Guard.
    The mission requirements are also expanding in my home 
state of Alaska. The area of responsibility assigned to Coast 
Guard units within Alaska's waters is the largest in the Nation 
and encompasses an area over three and a half million square 
miles. We have a little map, the blue, and the Great Lakes, of 
course, Senator Peters, are indicative of what the Coast Guard 
has to cover, and that is a lot, a lot, of territory.
    There is heightened interest in the Arctic with the 
region's future resource development, increased transportation, 
maritime traffic, resource development, and fisheries 
management. Commandant, as you know, just in 2010, the 
Panamanian-flagged shipping vessel the Nordic Barents sailed 
through the Northern Sea Route from Norway to China. It saved 
almost 18 days from the normal Suez Canal route, and that's 
$300,000 just in fuel savings. Since then, there has been a 
continuous and increasing amount of activity in the Arctic in 
the Northern Sea Route. Just this past summer, the cruise ship 
Crystal Serenity, with more than 1,700 passengers onboard 
became the largest commercial cruise ship ever to navigate the 
Northwest Passage from Alaska over to New York.
    America is lagging behind other countries when it comes to 
our ability to protect U.S. interests in the Arctic. I will 
have questions for you, sir, on what the Russians are doing in 
the Arctic and what we are trying to do there.
    I also want to make sure we talk about the assets of the 
Coast Guard. The National Security Cutter, the NSC, will be an 
asset in the Arctic region, but also throughout the country, as 
it has proven its operations in other theaters. The expanded 
capabilities of the NSC have had dramatic results in our fight 
against transnational criminal organizations, in the drug 
transit zones of the Caribbean and Eastern Pacific. The Coast 
Guard cutter HAMILTON secured 26 metric tons of cocaine worth 
over $760 million just on its maiden voyage. I look forward to 
its continued success and continued delivery of all nine of 
these high-performance vessels.
    As has been reported, the pre-decisional funding guidance 
we heard from OMB during formation of the President's budget 
contained a significant proposed cut in the Coast Guard. A 
number of us worked together--Senator Cantwell, myself, several 
other members of this committee--to address this to OMB and let 
them know what we thought of the importance of fully funding 
the Coast Guard. Ultimately, the proposed budget provides 
discretion to the Department of Homeland Security to allocate 
its department-wide budget in a manner of its choosing, and I 
am confident that Secretary Kerry--Kelly--excuse me, sorry 
about that--will be a strong supporter of the Coast Guard given 
his previous position as the commander of the Southern Command.
    This Subcommittee has a great deal of work to do to ensure 
that the Coast Guard is properly resourced to fund its 
priorities, modernize its assets, and successfully execute its 
mission.
    Admiral, we look forward to your testimony. I hope this 
hearing is able to focus attention on the mission demands 
placed upon the Coast Guard, and the value the service provides 
to the national security, national defense, and homeland 
security, and prosperity of this Nation.
    Thank you. And I recognize Ranking Member Peters for his 
opening statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman, and a 
pleasure to serve with you in this Congress, so I look forward 
to having many hearings and much work to do going forward. It's 
wonderful to have the first hearing of the Subcommittee to be 
with the Coast Guard, which, of course, plays a critical role 
in ensuring maritime safety and the security of our Nation. And 
I want to thank you, Admiral Zukunft, for being here today and 
joining us for this hearing.
    My home state of Michigan is a coastal state. Michigan has 
the longest freshwater coastline in the United States, and it 
has more coastline than any other state in the country with the 
exception of Alaska, so----
    The Chairman. I'm glad he clarified.
    [Laughter.]
    Senator Peters. Michigan also has the second most boat 
registrations of any state in the Nation. And I think we might 
have a better shot of taking that number one spot than the 
number one spot for coastline. That's probably fairly fixed.
    The citizens of Michigan depend on a healthy, secure Great 
Lakes system for clean drinking water, sustainable fisheries, 
recreation and tourism, navigable waterways to support a very 
robust maritime economy, and safe, secure borders with our 
friends to the north in Canada. The Great Lakes support more 
than a half a million jobs and supply the drinking water for 40 
million people.
    The 6,000 men and women who make up the Coast Guard 
District 9 serve selflessly to ensure that the lakes remain 
Michigan's second most important asset, next to our people. The 
Coast Guard is absolutely essential to making the Great Lakes 
accessible, clean, and safe for both commercial and 
recreational purposes alike.
    I've had the chance to visit a number of Coast Guard 
stations in Michigan, including Harbor Beach, Traverse City, 
Sheboygan, and Detroit, with Senator Nelson, just to name a 
few. And people in these towns, I will tell you, truly value 
and cherish the Coast Guard presence in their communities. In 
fact, this appreciation for the Coast Guard's critical role in 
the Great Lakes is largely because the Coast Guard has long 
been an integral part of these very tightly knit communities. 
Grand Haven, Michigan, in fact, is proud to hold the 
distinction of being the only city officially designated 
``Coast Guard City USA,'' and that's a testament to the close 
ties and affection our coastal communities hold for the Coast 
Guard.
    The Coast Guard's reputation as a ``can do'' service that 
stands always ready to do what we ask of it of course extends 
beyond our Great Lakes communities to communities all across 
the Nation and across the world where the Coast Guard operates 
professionally on every continent and every theater of U.S. 
conflict as well. Day in and day out we hear stories of 
fantastic work of our Coast Guard women and men and what they 
are doing.
    But you are forced to meet these and other mission demands 
with an aging fleet of cutters and aircraft. And I find reports 
of the Trump administration's plan to cut the budget of the 
Coast Guard by as much as 14 percent to be troubling and 
disconnected with the value of this unique military service. 
The Coast Guard's 210-foot medium endurance cutters are roughly 
50 years old, and some of the Coast Guard's C-130 planes are 
almost as old and facing troubles with reliability.
    In addition, in recent years, the Great Lakes have seen 
record levels of ice cover threatening the uninterrupted 
movement of commercial shipping, so vital to not only 
Michigan's economy, but the entire country's economy. And 
without continuous heavy icebreaker support in the winter 
months provided by the Coast Guard, we would be in trouble.
    The Coast Guard stands ready to respond to threats to the 
environment as well. For example, you are charged with 
responding to oil spills in the Great Lakes from pipelines and 
other forms of transportation.
    But given this myriad of tasks we ask of the Coast Guard, I 
believe that now is the time to increase the Coast Guard's 
budget, not to cut it, particularly to advance the acquisition 
of new ships and aircraft to enable the Coast Guard to perform 
reliably and effectively. If there are other things that 
Congress can do to keep you always ready, please let us know 
today. We look forward to hearing your comments.
    So I would like to thank you, Admiral, as well as all of 
the men and women of the Coast Guard, for your continued 
excellent service to the country. We look forward to your 
testimony.
    [The prepared statement of Senator Peters follows:]

   Prepared Statement of Hon. Gary Peters, U.S. Senator from Michigan
    Thank you, Mr. Chairman. First I want to thank you, Chairman 
Sullivan, and of course Chairman Thune and Ranking Member Nelson for 
calling this hearing today on the State of the Coast Guard, an agency 
that plays a critical role in ensuring the maritime safety and security 
of our Nation. I want to thank Admiral Zukunft, Commandant of the Coast 
Guard, for joining us today, and in advance of your testimony for our 
first hearing on the Coast Guard for the 115th Congress. Welcome, 
Admiral.
    My home state of Michigan is a coastal state--Michigan has the 
longest freshwater coastline in the United States, and more coastline 
than any other state except Alaska.
    And Michigan also has the second most boat registrations of any 
state in the nation--I think we have a better shot of taking the number 
one spot in this category as opposed to coastline miles.
    The citizens of Michigan depend on a healthy, secure Great Lakes 
system for clean drinking water, sustainable fisheries, recreation and 
tourism, navigable waterways to support a robust maritime economy, and 
safe, secure borders with our friends to the north in Canada.
    The Great Lakes support more than 500,000 jobs in Michigan and 
supply drinking water for 40 million people.
    The 6,000 men and women who make up Coast Guard District Nine serve 
selflessly to ensure the lakes remain Michigan's second-most important 
asset--next to our people. The Coast Guard is absolutely essential to 
making the Great Lakes accessible, clean and safe for commercial and 
recreational users alike.
    I have had the chance to visit a number of Coast Guard Stations in 
Michigan, including Harbor Beach, Traverse City, Cheboygan, and to STA 
Detroit with Senator Nelson, just to name a few. People in these towns 
and cities value and truly depend on the Coast Guard.
    This appreciation for the Coast Guard's critical role in the Great 
Lakes is largely because the Coast Guard has long been a part of our 
tightly-knit communities. Grand Haven, Michigan is proud to hold the 
distinction of being the only city officially designated ``Coast Guard 
City, USA'', a testament to the close ties and affection our coastal 
communities hold for the Coast Guard.
    The Coast Guard's reputation as a can-do service that stands 
``Always Ready'' to do what we ask of it extends beyond our Great Lakes 
communities throughout our national coastlines, and around the world 
where the Coast Guard operates professionally on every continent and in 
every theater of U.S. conflict.
    Day in and out, we hear stories of the fantastic work our Coast 
Guard women and men are doing around the world.
    But you are forced to meet these and other mission demands with an 
aging fleet of cutters and aircraft, and I find reports of the Trump 
Administration's plans to cut the budget of the Coast Guard by as much 
as 14 percent to be troubling and disconnected with the value this 
unique military service provides to the country.
    The Coast Guard's 210-foot Medium Endurance Cutters are roughly 50 
years old, and some of the Coast Guard's C-130 planes are almost as old 
and facing troubling issues with reliability.
    In addition, in recent years the Great Lakes have seen record 
levels of ice cover, threatening the uninterrupted movement of 
commercial shipping so vital to the Michigan economy without continuous 
heavy icebreaking support in the winter months provided by the Coast 
Guard.
    The Coast Guard stands ready to respond to threats to the 
environment as well. For example they are charged with responding to 
oil spills in the Great Lakes from pipelines and other forms of 
transportation.
    Given the myriad tasks we ask of the Coast Guard, I believe now is 
the time to increase the Coast Guard's budget, not cut it, particularly 
to advance the acquisition of new ships and aircraft to enable the 
Coast Guard to perform reliably and effectively.
    If there are other things Congress can do to keep you ``Always 
Ready,'' please let us know today.
    Thank you and the men and women of the Coast Guard for your 
continued excellent service to our country and I look forward to your 
testimony.

    The Chairman. Thank you, Senator Peters.
    And now I would like to welcome the witness, the Commandant 
of the United States Coast Guard, Admiral Zukunft. Please, sir, 
your opening testimony.

 STATEMENT OF ADMIRAL PAUL F. ZUKUNFT, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Zukunft. Good afternoon, Mr. Chairman and 
distinguished members of the Subcommittee. I appreciate the 
opportunity to testify today. And I want to especially thank 
you for your enduring support of the United States Coast Guard. 
I also ask that my written statement be entered into the 
record.
    The Chairman. Without objection.
    Admiral Zukunft. The Coast Guard offers a truly unique and 
enduring value to our Nation. The only branch of our U.S. armed 
services within the Department of Homeland Security, the Coast 
Guard is uniquely positioned to help secure the border, combat 
transnational organized crime, and safeguard America's economic 
prosperity. And I cannot be more proud of the operational and 
modernization successes we have had in 2016.
    Now, transnational criminal organizations continue to wreak 
havoc on security and prosperity in Central and South America. 
That was validated just 2 hours ago when I met with the 
President of Honduras, President Hernandez. Now, these 
networks, they corrupt rule of law, they've forced historic 
levels of migration to our Southwest border, and it's the Coast 
Guard's capabilities and authorities that position our service 
to attack these networks before they reach our borders, where 
they are most vulnerable, and that's when they're at sea.
    Using our broad law enforcement authorities and a portfolio 
of more than 60 bilateral agreements, we push our maritime 
borders thousands of miles beyond our land border with Mexico 
to disrupt these illicit pathways. In 2016, we recorded a 
record removal of 201 metric tons of cocaine, and we brought 
585 smugglers, members of transnational criminal organizations, 
to justice here in the United States, where our prosecution 
rate is nearly 100 percent, whereas it's less than 10 percent 
in their countries of origin.
    However, cocaine and illicit trafficking, they're on the 
rise. And surveillance and surface asset gaps allow us to 
target a mere 30 percent of known cases. Last year, it was a 
lack of interdiction assets by the Coast Guard that prevented 
us from disrupting 580 known smuggling events. Critical 
acquisitions, like the Fast Response Cutter, the National 
Security Cutter, the Offshore Patrol Cutter, and both ship- and 
land-based unmanned aerial systems are essential to long-term 
success in our fight against illicit networks, the pathways 
they employ, and the threat they pose to our southern border.
    We recently awarded Phase 2 to complete the build-out of 
our 58 Fast Response Cutters at an affordable price, and the 
last four, numbers 19 through 22, were delivered with zero 
discrepancies. We awarded the acquisition for the first nine 
Offshore Patrol Cutters to Eastern Shipbuilding Group, a down 
payment for a program of record of 25 of these capable 
platforms that meet requirements, and all at an affordable 
price.
    We also awarded long lead time materials to Huntington 
Ingalls for a ninth National Security Cutter. These ships 
continue to prove their worth by allowing us to go on the 
offense to fight and to secure our borders.
    And we stood up an Integrated Program Office with the Navy, 
and recently awarded industry studies to commence the build-out 
of a fleet of three heavy and three medium icebreakers. The 
first one we need to have delivered by the year 2023.
    On top of that, we received our fourth consecutive clean 
financial audit opinion, the only service to have one, and we 
have four consecutive, and have minimized acquisition and cost 
growth and timeline slippages in our major acquisitions.
    I especially want to thank this Congress for its strong and 
consistent support of our critical acquisition programs. And 
while we have had operational and acquisition success, 
readiness, modernization, and force structure challenges 
inhibit our ability to fully address the asymmetrical threats 
in our increasingly volatile world.
    The Coast Guard is an important part of the modern joint 
force, and I am proud of our enduring contributions to our 
combatant commanders around the world. Like DoD, the Coast 
Guard faces the many challenges associated with mission 
demands, years of fiscal constraints, and lost purchasing 
power. However, as the only armed service in the Department of 
Homeland Security, we rely primarily upon non-defense 
discretionary funds for both our capital and our operating 
budgets.
    Further, our ability to simultaneously execute our full 
suite of missions and sustain support to combatant commanders 
while also being ready to respond to global contingencies has 
eroded under the Budget Control Act. Secretary Kelly 
understands this issue and fully supports the President's call 
to rebuild all of the armed services.
    Restoring readiness is but one part of the equation, and 
prudence demands that we continue to invest and modernize our 
Coast Guard. Our world is not exactly breaking out in 
tranquility. Our Nation benefits when its Coast Guard is 
equipped to project U.S. sovereign interests in the polar 
regions to dismantle transnational criminal organizations and 
secure the $4.5 trillion of economic activity in our Nation's 
Maritime Transportation System.
    Now, our inland river system relies upon a fleet of 35 
inland buoy tenders with an average age of 52 years to keep 
this infrastructure running. The time to replace these assets 
is now, and your support has helped us to make tremendous 
progress, and it is critical we build upon these successes to 
field assets that meet cost, schedule, and performance 
milestones.
    Funding 21st century Coast Guard platforms and people is a 
smart investment in our national security. Modern assets with 
exceptional capability is but one aspect, but our greatest 
asset is our people. I'm incredibly proud of our 88,000 active 
duty, reserve, civil servant, and auxiliary members, but we 
need at least 1,100 more reservists and another 5,000 active 
duty personnel to be Semper Paratus in a non-static 21st 
century.
    I appreciate the unwavering support of this subcommittee to 
address our most pressing needs, and with the continued support 
of the administration and Congress, the Coast Guard will 
continue to live up to our motto, ``Semper Paratus, Always 
Ready.''
    Thank you for this opportunity. And I look forward to your 
questions.
    [The prepared statement of Admiral Zukunft follows:]

      Prepared Statement of Admiral Paul F. Zukunft, Commandant, 
                            U.S. Coast Guard
    Good afternoon Mr. Chairman and distinguished members of the 
Subcommittee. I appreciate the opportunity to testify today and thank 
you for your enduring support of the United States Coast Guard.
    As the world's premier, multi-mission, maritime service, the Coast 
Guard offers a unique and enduring value to the Nation. The only branch 
of the U.S. Armed Forces within the Department of Homeland Security 
(DHS), a Federal law enforcement agency, a regulatory body, a first 
responder, and a member of the U.S. Intelligence Community--the Coast 
Guard is uniquely positioned to help secure the border, combat 
transnational criminal organizations (TCO), and safeguard America's 
economic prosperity.
    Indeed, the Coast Guard's combination of broad authorities and 
complementary capabilities squarely align with the Administration's 
priorities, and I am proud of the return on investment your Coast Guard 
delivers on an annual basis.
    I appreciate the unwavering support of this Subcommittee to address 
our most pressing needs. I will continue working with Secretary Kelly, 
the Administration, and this Congress to preserve momentum for our 
existing acquisition programs and employ risk-based decisions to 
balance readiness, modernization, and force structure with the evolving 
demands of the 21st century.
    Appropriately positioned in DHS, the Coast Guard is a military 
Service and a branch of the Armed Forces of the United States at all 
times.\1\ We are also an important part of the modern Joint Force,\2\ 
and a force multiplier for the Department of Defense (DoD). I am proud 
of our enduring defense contributions to Combatant Commanders around 
the globe.
---------------------------------------------------------------------------
    \1\ 14 USC Sec. 1.
    \2\ In addition to the Coast Guard's status as an Armed Force (10 
U.S.C. Sec. 101), see also Memorandum of Agreement Between the 
Department of Defense and the Department of Homeland Security on the 
Use of Coast Guard Capabilities and Resources in Support of the 
National Military Strategy, 02 May 2008, as amended 18 May 2010.
---------------------------------------------------------------------------
    In addition to the six cutters operating as part of Patrol Forces 
Southwest Asia (PATFORSWA) since 2003, other defense operations 
include:

  <bullet> Port Security Units (PSUs) support Combatant Commanders with 
        24-hour protection of vessels, waterways, and port facilities. 
        These specialized teams have deployed almost continuously to 
        strategic ports in Kuwait and in Guantanamo Bay, Cuba, since 
        2002.

  <bullet> Deployable Specialized Forces Advanced Interdiction Teams 
        support U.S. Central Command (CENTCOM) vessel board, search, 
        and seizure operations.

  <bullet> Aircrews perform rotary-wing air intercept operations in 
        support of the North American Aerospace Defense Command 
        (NORAD). Specially trained aviators intercept aircraft that 
        enter restricted airspace in the National Capital Region and 
        during National Security Special Events around the country.

  <bullet> Assets and personnel deploy worldwide in support of defense 
        operations and fully participate in major international 
        exercises. As the Coast Guard is similar in size, composition, 
        and missions to most of the world's navies, we are a frequent 
        engagement partner of choice to support Combatant Commander 
        goals.

    Like the other military Services, the Coast Guard supports all 
efforts to rebuild the Armed Forces.
    Secretary Kelly leads the Department's efforts to secure our 
borders, and the Administration's strategy ``to deploy all lawful means 
to secure the Nation's southern border . . .'' \3\ relies on the Coast 
Guard supporting a comprehensive security strategy. The Coast Guard 
protects the maritime border--not just here at home, but also off the 
coast of South and Central America. As Secretary Kelly has stated, ``. 
. . the defense of the southwest border really starts about 1,500 miles 
south . . .'' \4\
---------------------------------------------------------------------------
    \3\ Executive Order on Border Security and Immigration Enforcement 
Improvements, 25 January 2017.
    \4\ Secretary Kelly Hearing Testimony, ``Ending the Crisis: 
America's Borders and the Path to Security'' before the House Homeland 
Security Full Committee and Subcommittee on Border and Maritime 
Security Joint Hearing on America's Borders, Panel 1, 07 February 2017.
---------------------------------------------------------------------------
    We continue to face a significant threat from TCOs, and the Coast 
Guard is positioned to attack these criminal networks where they are 
most vulnerable, at sea. We leverage over 40 international maritime law 
enforcement bilateral agreements to enable partner nation interdictions 
and prosecutions, and employ a robust interdiction package to seize 
multi-ton loads of drugs at sea before they can be broken down into 
small quantities ashore.
    In close collaboration with partner Nations and agencies, the Coast 
Guard works to engage threats as far from U.S. shores as possible. In 
2016, Coast Guard and partner agencies interdicted more cocaine at sea 
than was removed at the land border and across the entire nation by all 
federal, state and local law enforcement agencies--combined. A service 
record 201.3 metric tons of cocaine (7.1 percent of estimated flow) \5\ 
was removed from the western transit zone, 585 smugglers were detained, 
and 156 cases were referred for prosecution.
---------------------------------------------------------------------------
    \5\ [U.S. Department of Homeland Security, Office of Inspector 
General, Review of U.S. Coast Guard's Fiscal Year 2016 Drug Control 
Performance Summary, OIG Report, OIG-17-33, February 1, 2017.]
---------------------------------------------------------------------------
    Coast Guard readiness relies on the ability to simultaneously 
execute our full suite of missions and sustain support to Combatant 
Commanders, while also being ready to respond to contingencies. Your 
Coast Guard prides itself on being Semper Paratus--Always Ready, and 
predictable and sufficient funding is necessary to maintain this 
readiness in the future. Prudence also demands we continue investing in 
a modernized Coast Guard. Indeed, recapitalization remains my highest 
priority, and today's activities will shape our Coast Guard and impact 
national security for decades. Your support has helped us make 
tremendous progress, and it is critical we build upon our successes to 
field assets that meet cost, performance, and schedule milestones. I am 
encouraged by our progress to date.
    In 2016, we awarded a contract to complete build out of our fleet 
of 58 Fast Response Cutters--at an affordable price--and the last four 
ships (numbers 19 through 22) were delivered by Bollinger Shipyards 
with zero discrepancies. In September, we achieved a monumental goal 
with the award of a contract for Detail Design and Construction of the 
Offshore Patrol Cutter (OPC). These cutters will eventually comprise 70 
percent of Coast Guard surface presence in the offshore zone. OPCs will 
provide the tools to more effectively enforce Federal laws, secure our 
maritime borders by interdicting threats before they arrive on our 
shores, disrupt TCOs, and respond to 21st century threats. With the 
continued support of the Administration and Congress, we anticipate 
ordering long lead time material for the first OPC later this year, and 
plan for its delivery in 2021.
    We also generated momentum to build new polar icebreakers. In July 
of last year, we made a commitment to partner with the Navy to 
establish an Integrated Program Office to acquire new heavy 
icebreakers. This approach leverages the expertise of both 
organizations and is delivering results. The recent award of multiple 
Industry Studies contracts--a concept the Navy has utilized in previous 
shipbuilding acquisitions to drive affordability and reduce schedule 
and technical risk--is an example of the positive results of this 
partnership. We will continue refining the system specification and 
prepare to release a request for proposal for Detail Design and 
Construction in FY 2018.
    We are also making progress with unmanned aerial systems. A recent 
small Unmanned Aerial System (sUAS) proof of concept aboard a National 
Security Cutter (NSC) validated this capability and will enhance the 
effectiveness of these cutters. In its inaugural month underway, 
STRATTON's sUAS flew 191 flight hours, providing real-time surveillance 
and detection imagery for the cutter, and assisting the embarked 
helicopter and law enforcement teams with the interdiction or 
disruption of four go-fast vessels carrying more than 5,000 pounds of 
contraband. In addition, we are exploring options to build a land-based 
UAS program that will improve domain awareness and increase the cued 
intelligence our surface assets rely upon to close illicit pathways in 
the maritime transit zone. While long-term requirements are being 
finalized, I can fully employ a squadron of six platforms outfitted 
with marine-capable sensors now and am moving out to field this much-
needed capability.
    In addition to the focus on recapitalizing our surface and aviation 
fleets, we are also mindful of the condition of our shore 
infrastructure. Investments in shore infrastructure are also critical 
to modernizing the Coast Guard and equipping our workforce with the 
facilities they require to meet mission.
    America's economic prosperity is reliant on the safe, secure, and 
efficient flow of cargo through the Maritime Transportation System 
(MTS), which sees $4.5 trillion of economic activity annually. The 
Nation's maritime industry and the MTS face many challenges, including 
growing demands, a global industry-driven need to reduce shipping's 
environmental footprint, and the ever-increasing complexity of systems 
and technology.
    Coast Guard marine safety programs employ our unique capabilities 
to ensure a safe, secure, and environmentally sound MTS. We do this by 
developing risk-based standards, training and employing a specialized 
workforce, and conducting investigations into accidents and violations 
of laws so standards can be improved. We are mindful of the need to 
facilitate commerce, not impede it, and remain committed to our 
prevention missions.
    While readiness and modernization investments will improve current 
mission performance, the right force is central to success. I am 
incredibly proud of our 88,000 active duty, reserve, civil service, and 
auxiliary members. I am working aggressively to validate a transparent 
and repeatable model to identify the appropriate force structure 
required for the Coast Guard to simultaneously respond to global, 
national, and regional events.
    Funding 21st century Coast Guard platforms and people is a smart 
investment, even in this challenging fiscal environment. Modern assets 
bring exceptional capability, but our greatest strength will always be 
our people. Coast Guard operations require a capable, proficient, and 
resilient workforce that draws upon the broad range of skills, talents, 
and experiences found in the American population. Together, modern 
platforms and a strong, resilient workforce will maximize the Coast 
Guard's capacity to meet future challenges.
    History has proven that a responsive, capable, and agile Coast 
Guard is an indispensable instrument of national security. With the 
continued support of the Administration and Congress, the Coast Guard 
will continue to live up to our motto. We will be Semper Paratus--
Always Ready. Thank you for the opportunity to testify before you today 
and for all you do for the men and women of the Coast Guard. I look 
forward to your questions.

    The Chairman. Great. Well, thank you, Admiral. And, again, 
thanks for your service, and please pass on our appreciation to 
all the men and women in the Coast Guard, who do such an 
exceptional job every day.
    I wanted to follow up on what you mentioned just in your 
testimony and also in your ``State of the Coast Guard'' address 
last week when you talked about the need to look at the budget 
of the Coast Guard to be no longer marked as discretionary non-
defense. Can you explain a little bit more in detail on your 
ideas on how to focus this issue? You're clearly one of the 
five services. You serve on the Joint Chiefs, isn't that 
correct?
    Admiral Zukunft. That is correct.
    The Chairman. And yet somehow, maybe because you're not 
located over at the Pentagon, there seems to be an occasional 
disconnect. And I think it comes from the Congress, but I also 
think it comes from the Executive Branch.
    How can we better address the issue that you are a key 
member of the U.S. military that a number of us want to make 
sure we're rebuilding all five services?
    Admiral Zukunft. So it's a binary approach. We have non-
defense discretionary and defense discretionary. And our 
defense discretionary, that comprises 4 percent of the Coast 
Guard's budget. The other 96 percent is non-defense 
discretionary. It would be helpful if I gave you an example. 
Today we have over 18 ships that are chopped to Southern 
Command. No Navy ships. That fleet down there are all Coast 
Guard ships, bought for and paid for by the Coast Guard with 
non-defense discretionary, manned with non-defense 
discretionary, operated and maintained with non-defense 
discretionary funding.
    The Chairman. And who has operational control over those? 
Is that the combatant commander of Southern Command?
    Admiral Zukunft. Right now, they're under the Tactical 
Command of Southern Command, doing detection and monitoring 
activities, which is considered a defense, or Title 10 
authority. But as soon as it transitions to an interdiction law 
enforcement operation, these very same people, very same 
platforms, shift to doing Title 14, which is law enforcement 
authority.
    So we have our feet in both buckets in enforcing law and 
upholding sovereignty across the world. The Coast Guard is off 
the coast of six of seven continents right now, and we can do 
this interchangeably. But 96 percent of our budget finds itself 
in non-defense discretionary when, in fact, we're a very 
fungible service that on a daily basis works across these 
defense and non-defense authorities to carry out missions in 
support of our national security.
    The Chairman. So when the Trump administration talks about 
increasing spending for national defense in terms of our 
military and in terms of our homeland security, you would seem 
to be in your service occupying both fields.
    Admiral Zukunft. And we would certainly like to be 
included. As we mention Army, Air Force, Navy, Marine, let's 
not forget the Coast Guard as we talk about readiness concerns 
of our armed service because we are, in fact, an armed service 
first and foremost.
    The Chairman. I want to change topics, Admiral. The fishing 
industry is important to a number of the members in the 
Committee here. What do you see right now as the biggest 
challenges, whether in Alaska or off the coast of Mississippi 
or New Jersey with regard to our fishing fleet? Is it IUU 
issues? What are the biggest challenges that the Coast Guard is 
focused on right now?
    Admiral Zukunft. I first look at this globally. And about 3 
billion people today in the world, out of 7.2 billion people, 
reside on fish as their primary source of protein. If I look 
out 20 years from now, the world's population is going to be 
closing in on $9 billion, and many of these fish stocks are 
already collapsing.
    Chairman, as you well know, we have a very sustainable 
fishery in Alaska up in the Bering Sea. We don't know where 
fish are going to go, but we do know that ocean temperatures 
are warming, and fish are moving further and further north, and 
we have a moratorium up in the high latitudes that say you 
can't fish up here, but we don't have an enforcement mechanism.
    So as I look at global demands for fish and protein and 
distant water fishing fleets, we can't just put paper on top of 
this and say, ``No fishing allowed.'' It does require an 
enforcement regime. And we need to look at, how do we sustain 
fisheries where it works? And right now, the model that works 
the best with individual fishing quotas, our work with NOAA and 
the fishery councils, that is a model of success.
    We do have stressors elsewhere, particularly off the coast 
of New England. But I look at where the largest fish stocks are 
drawn from in this country, is in the state of Alaska and those 
waters adjacent thereto.
    The Chairman. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again thank you, Admiral, for your presence here. Admiral, 
some of the cuts that are reportedly outlined in the OMB's 
draft budget include the elimination of all 10 of the Coast 
Guard's Maritime Safety and Security Teams, which, among many 
other missions, provide waterborne security for President Trump 
when he retreats to his Mar-a-Lago resort on most weekends. In 
addition, the cuts would eliminate our Maritime Security 
Response Teams, which I understand provide specialized maritime 
counterterrorism capability. Could you tell the Committee a 
little bit about what capabilities those units offer and what 
would happen if they were eliminated?
    Admiral Zukunft. As you noted, Senator, we have two high-
end teams, a Maritime Security Response Team, one on the East 
Coast, one on the West Coast. These are bona fide 
counterterrorism teams that look at an ambiguous threat, but 
they can enter onto a ship suspected of carrying a weapon of 
mass destruction.
    We have over 10 bilateral agreements that allow us to board 
pretty much every flag state of convenience anywhere on the 
high seas, but if there is even reasonable suspicion that there 
is a vessel destined toward the United States carrying a 
chemical or radiological device, we don't have to wait for it 
to pass under the Golden Gate Bridge, to use a metaphor, we 
meet them offensively offshore.
    In many cases, we will use Navy airlift to get our people 
out there to do the boarding, but we don't know if it's a real 
thing, which is why we approach it using law enforcement 
authority, Title 14, but it can quickly escalate to Title 10.
    We don't pull our people out. These are highly trained 
teams. They expend 40,000 rounds of precision fire a year. And 
so if we have a threat to the homeland, this is the team that 
you want on your side. So that's what those two teams do.
    Our other, Maritime Safety and Security Teams, they're the 
ones that secure our ports and infrastructure. And we talk 
about $4.5 trillion worth of commerce; for a very modest 
offset, we would put all of that economic prosperity at risk. 
If you were to look at the outside of, ``What is it that makes 
this economic engine run in the United States?'' much of it 
happens through our ports and waterways, and these are the 
teams that secure that for our Nation.
    Senator Peters. Well, they do a critically important job, 
and it reminds us of the fact that most of our borders are 
water, not land, and I know you are stretched very thin to 
provide that incredible protection. That really leads to my 
next question, it's my sense that whenever we squeeze the 
middle of a balloon, as an example, air will rush to where it's 
going to escape and move somewhere else. Similarly, I think you 
can use that analogy to look at criminal activity as it usually 
flows to the path of least resistance wherever we squeeze. And 
we have seen that when we have a strong land border, illegal 
efforts can shift to the maritime routes, and vice versa.
    The Coast Guard in 2016 broke your 2015 achievements by 
interdicting a record amount of 416,000 pounds of illegal drugs 
worth $4.5 billion. Congratulations to each and every one of 
you who made that happen.
    So my question is, if the Coast Guard budget is cut to fund 
a wall or another type of land border security system, where 
would we expect criminal activity to go? Would it flow into the 
maritime domain? And how would you be able to maintain your 
effectiveness in the face of potentially significant cuts?
    Admiral Zukunft. If I look at a wall, I really look at a 
border as a system, and so a wall is a defensive aspect of 
border security. But when your authorities go into--right up to 
the shoreline of over 40 signatory countries that say, ``Coast 
Guard, you can come in and enforce law in our sovereign waters 
before that threat threatens your country,'' that's a very 
offensive-driven strategy. So you have an offense and a 
defense. You need both aspects of this, a system, to have a 
coherent border security regime. So you need both. One 
complements the other, but you can't have one without the 
other.
    So I'm not the land border expert, but I am--I've been 
around the water for quite a while. And as I said in my opening 
statement, where this movement is most vulnerable is when it's 
on the high seas. That's where we have the upper hand. It's a 
numbers game. We don't have enough capacity. It's ship numbers, 
surveillance in the air, all of that matters. But when those 
commodities--they're landing in Central America.
    I met with President Hernandez, as I said earlier, and we 
set up what we called a sea shield. We stopped ships from 
offloading cocaine off the Honduran rise, and within a year and 
a half, violent crimes went down 30 percent in Honduras. 
Honduras at that time was the number three drop-off point for 
cocaine. Today, it's number 7.
    As you said, you squeeze a balloon, and guess where the 
balloon squeezed out. Costa Rica is now the number three 
landing point, and we just met with their President. He said, 
``I don't have a Navy, I have a very nascent Coast Guard, but 
we need more U.S. Coast Guard off our waters.'' Because these 
are commodities that are being dropped in Central America, but 
they're destined for the United States for consumption here. So 
we own a part of this as well as the number one consumer of 
just in cocaine alone.
    Senator Peters. Thank you, Admiral.
    The Chairman. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. OK. First, thank you, Senator Wicker, for 
allowing me to move in ahead of you. You know, you're aware of 
this, but some of the others might wonder why this would be the 
case, but I've spent a lot of time at the Academy up there. 
I've actually talked to two of their graduating classes, and 
there are some reasons for this. But we have what I consider to 
be a best kept secret in my state of Oklahoma, that even in the 
infinite wisdom of our Chairman Sullivan may not be aware of 
it, and that is, we in Oklahoma are navigable. Did you know 
that?
    The Chairman. No.
    Senator Inhofe. Yes, well, we are. And I'm very proud of 
this. In fact, my father-in-law had a lot to do with the 
building of what some people consider to be the greatest 
boondoggle of all time. But it was our boondoggle, you know.
    [Laughter.]
    Senator Inhofe. Anyway, we have the cutters that go back 
and forth, and they're stationed up there. We have one that is 
Muskingum, is based in Sallisaw. Now, what these guys do is 
they go up and down the navigation way to make sure the buoys, 
that all the aids are in good shape, and it happens that the 
cutter that is in Oklahoma is--and I checked and I found out 
it's the same problem in other areas--it's 52 years old, you 
even made that in your opening statement, and built in 1965.
    Now, what kind of--you know, this is--are there problems 
that go with this? Because they're old pieces of equipment. 
I've been on them. What's out there that might be--that we 
might look at and--can you get parts for them?
    Admiral Zukunft. So we pretty much have done everything we 
can. We almost have to go to the Smithsonian to find parts.
    [Laughter.]
    Admiral Zukunft. But we've had challenges with lead 
abatement, asbestos mitigation. When those ships were designed 
in 1965, they were not designed for mixed gender crews, there 
are only a handful of ships in this fleet that can accommodate 
mixed gender crews. And so all of those complicate matters.
    We've worked with the Army Corps of Engineers to look at a 
common platform design to take all of the design work out of 
what it would take to recapitalize this fleet. And the dollar 
value is about $25 million a copy.
    Senator Inhofe. Yes.
    Admiral Zukunft. So if you look at the value of that 
commerce, again, $4.5 trillion. This is the equivalent of our 
interstate highway system, and it has 35 maintenance vehicles 
to maintain the entire interstate highway. One tank barge takes 
144 tank trucks off the highways, and one tow configuration, 
that equates to over 2,000 trucks. And if you run that out, the 
numbers, you're talking tens of millions of trucks carrying 
hazardous cargos are now taken off our highways and through our 
inner-city streets. So it's absolutely critical to our Nation's 
infrastructure and to our resiliency as well.
    Senator Inhofe. Yes.
    Admiral Zukunft. A modest investment, but as you know, we 
have a couple that are over 70 years old still in operation 
today. It is a challenge for us.
    Senator Inhofe. Yes. Well, I know that's true. And I meant 
to mention one other thing to you, and that is you have a 
reputation to be so accommodating to people. I've had occasion 
to be--I used to be a builder and developer in South Padre 
Island, Texas, and they pulled me off the rocks on two 
different occasions. And I had occasion to fly an airplane 
around the world a few years ago up in Alaska, I mean, they 
just stop everything they're doing to accommodate you.
    Now, you do have the C-27Js. I actually did the amendment 
on the Armed Services Committee to make that transfer. I think 
there are 12 of them or so?
    Admiral Zukunft. Fourteen.
    Senator Inhofe. Fourteen. And how are they? Are they 
working all right? Is that the kind of aircraft that can still 
perform?
    Admiral Zukunft. Great platform. They have very few hours 
on them. We've taken delivery of 13 of 14. Our first air 
station out in Sacramento, California, will take delivery of 
their sixth. And so we're missionizing these.
    What we did find out is as these were being built, there 
were not a large suite of vendors that had bought into the C-
27J. So the spare parts allowance is a challenge for us right 
now. But as we build this program out, it's the spare parts 
that we're going to need to build out simulators and the like. 
But make no mistake, this was a half billion dollar cost 
savings, and, again, with the support of you and others to make 
this transaction possible, because we would be sorely 
challenged to find those monies with the other recapitalization 
needs we have.
    Senator Inhofe. Well, that was only about 3 years ago, and 
it seemed to be a good fit when we did that.
    Admiral Zukunft. This is an improvement over what was our 
prior program of record. I've flown in these airplanes, not 
around the world, but when I talk to the air crews, they are 
delighted with this airframe.
    Senator Inhofe. Yes. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    And thank you, Admiral, for speaking so highly of the 
Alaska fishing fleet and the management practices. We 
appreciate that in the Northwest.
    If I could, I want to ask several questions and try to get 
through them. On the budget, is there support for a new 
icebreaker?
    Admiral Zukunft. Senator, there is. And so----
    Senator Cantwell. Can you say at what level?
    Admiral Zukunft. So it's in the Navy shipbuilding budget, a 
$1 billion mark that has been put in there. We've stood up an 
Integrated Program Office. We awarded industry studies 3 weeks 
ago. So----
    Senator Cantwell. So you're saying in this new budget, 
there is support for the $1 billion that the Senate was able to 
push----
    Admiral Zukunft. Push $150 million of that out, so we can 
accelerate the timeline with industry studies, look at 
commercial off-the-shelf designs, and ideally award a contract 
to start cutting steel in the next year.
    Senator Cantwell. OK. Offshore Patrol Cutters, are they in 
this budget proposal?
    Admiral Zukunft. They are, and I am delighted to see that.
    Senator Cantwell. OK. And can you tell us at what amount?
    Admiral Zukunft. I don't have the exact amounts. I can----
    Senator Cantwell. You know, I think my colleague from 
Michigan asked, first we saw the skinny budget with, I think, a 
14 percent reduction, and then a new proposal, but we couldn't 
really see the transparency of the Coast Guard. So as a lot of 
Coast Guard communities represented here and places where the 
Coast Guard is so critical, we just want to understand what's 
in the budget proposal and what we have to fight extra hard for 
that's not.
    Admiral Zukunft. Yes. So when we looked at the initial 
pass-back, it did not touch the Offshore Patrol Cutter. So I'll 
give you the exact funding figures that are in there for 2018, 
but we are still on trajectory to deliver the first of those 25 
in 2021.
    Senator Cantwell. OK. Canadians are upping by $200 million 
their oil response prevention because of the tar sand oil. You 
and I have had this exchange before. Is there additional 
funding in the Coast Guard budget for tar sands?
    Admiral Zukunft. We have modest funding in our R&D budget, 
and this is one of my highest priorities, trying to remove 
bitumen, whether it's in the Great Lakes, in the Straits of 
Juan de Fuca, but we're also working within the Department of 
Homeland Security and S&T to look at what other technologies 
are out there. We meet regularly with our Canadian 
counterparts. I'll meet tomorrow with my counterpart from 
Russia in Boston, and what are they doing to mitigate an oil 
spill in the Arctic domain as well? So we need to be 
transparent in, what are the best technologies out there?
    Senator Cantwell. So you did get new money? Is that what 
you're saying?
    Admiral Zukunft. No. We're still flatlined in our R&D 
budget.
    Senator Cantwell. So you need money. So we need money on 
this?
    Admiral Zukunft. It would help.
    Senator Cantwell. Thank you. On this TRICARE issue that you 
and I have had a chance to have an exchange about, and I was 
just out at Cape Disappointment meeting with fishermen in 
Ilwaco, and the Coast Guard was good enough to show up. I think 
the issue here is that still given this designation, we have 
Portland on one side, who basically gets to be seen as rural, 
not enough access, and gets a better designation than on the 
Washington side, obviously a very small community. The analysis 
is that really there is only one in seven nurse practitioners 
and one doctor available to see Coast Guard patients in under a 
one-month period of time.
    So I received a letter from you I think dated yesterday or 
today, and you're still looking at this. So I want to 
understand what processes we need to go through to help the men 
and women in the Coast Guard in that region get access to 
timely health care.
    Admiral Zukunft. Senator, again, I thank you. My wife and I 
have been to these very same remote areas, and this comes as no 
surprise to us. And with all the military serving in the state 
of Washington, thank you for looking out to our folks that 
often are overlooked.
    We'll look at the designation, the proper designation. We 
have a clinic in Astoria. We're meeting with the Defense Health 
Agency. Can we instate this as TRICARE Remote instead of 
TRICARE Prime? But what impact would that have with retirees, 
all the military retirees that live in these very same 
communities? So I want to be able to answer those questions. 
But we are not meeting the needs of our people today, and I 
understand that.
    We will meet with you and your staff I believe on the 
fourth of August. We're still waiting to get more information 
back from the Defense Health Agency because they would be the 
ones that would ultimately designate that as an area for 
TRICARE Prime Remote.
    Senator Cantwell. Well, we definitely will help take on 
that effort with them, but we want to know we have your support 
in that.
    Admiral Zukunft. Yes, you do.
    Senator Cantwell. OK. Thank you.
    Thank you, Mr. Chairman.
    And just, UAVs, if you're going to include that in the 
icebreakers. Are they going to look at that capacity?
    Admiral Zukunft. Right now we're looking at that in our 
counterdrug. This is going to be crosscutting in everything 
that we do, in the high latitudes, with drug interdiction and 
the like, but we also need to look at land-based unmanned 
aerial systems as well.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    Admiral, let's talk about ballast water regulations and 
vessel incidental discharge regulations. In addition to the 
Federal standard already in place, 25 states have implemented 
their own regulations. What is the importance of having a 
uniform national standard for vessel owners and operators? And 
would a national uniform standard streamline enforcement 
efforts?
    Admiral Zukunft. Thank you for that question, Senator. And 
uniform is absolutely the right approach to take. So if you 
have ship--you know, we held the bottom line on rendering 
invasive species nonviable. The International Maritime 
Organization was looking at a less stringent standard than the 
U.S. Coast Guard did.
    It's taken us several years and working with independent 
labs, but we now have three certified systems that meet the 
threshold of rendering invasive species nonviable, which will 
be appealing to every state that--you know, the Saint Lawrence 
Seaway, as an example, as well, the state of New York. But it 
provides a uniform standard for all ports in the United States 
because, otherwise, it would be very difficult for us to engage 
in maritime trade. And if shippers can't meet a uniform 
standard because a state applies a different one, they'll go 
somewhere else, they'll just go somewhere else.
    Senator Wicker. OK. Well, now, do explain for those of us 
who are not quite as familiar with this, nonviable. What do you 
mean by that?
    Admiral Zukunft. Basically it means it kills the species, 
it cannot reproduce itself. The IMO standard does not render 
it--you know, a species, if discharged, has a potential to 
reproduce, and so think where we are with zebra mussels.
    Senator Wicker. OK. So the international standard would 
allow some of these species to slip through, but the standard 
that you enforce does not allow these invasive species----
    Admiral Zukunft. That's correct.
    Senator Wicker.--to slip through, and that's because 
they're nonviable.
    Admiral Zukunft. Right.
    Senator Wicker. OK. Well, there are some people who don't 
seem to understand that the Coast Guard has jurisdiction and 
expertise in this area. Some critics claim the agency has 
little water pollution enforcement expertise, and, instead, 
mainly deals with homeland security issues. I understand one of 
the Coast Guard's 11 statutory missions is marine environmental 
protection. How long has the Coast Guard performed this 
mission?
    Admiral Zukunft. Since the mid-1800s, Senator.
    Senator Wicker. And is there any other agency than the 
Coast Guard who enforces vessel discharge in the United States?
    Admiral Zukunft. At sea, it is only the Coast Guard.
    Senator Wicker. OK. So what do you have to do--what is the 
problem when a state has a different standard, as some states 
do? How does that present a problem for you making all of these 
species nonviable?
    Admiral Zukunft. Well, I think we really--it is an issue of 
educating and collaborating. It can get technically complex, 
but to explain the standard that we have applied that would 
meet the thresholds that they have set. Now, there may be some 
states that have set thresholds that, quite honestly, science 
cannot attain today or maybe even into the distant future, and 
if they uphold that standard, then what it does do is it may 
shut off those ports to shipping, which is probably 
counterproductive to the threshold they're trying to set, but 
this does meet the intent of what concerns these states the 
most, is to assure that we do not have invasive species 
entering our waterways.
    Senator Wicker. Well, we don't want that, and so thank you 
for what you're doing. Let me just briefly ask you about 
icebreakers. This is an issue that is vitally important to us 
in the Gulf Coast area. I understand the POLAR STAR is the only 
heavy icebreaker, and actually we do build ships around and 
about in the Gulf Coast. But what--if there's a gap, if this
    OLAR STAR, the only one we have, it goes offline, and 
there's a gap, what are the problems there? And don't other 
agencies try to avoid having that sort of situation?
    Admiral Zukunft. Absolutely. If there is a gap with a heavy 
icebreaker, there are no other heavy icebreakers. In fact, 
there are few, if any, heavy icebreakers that are available for 
lease on the worldwide market today. Clearly, Russia is off the 
table. And so these are national assets in the true sense.
    So as far as the way ahead, we are doing everything we can 
to sustain POLAR STAR until we recapitalize the next heavy 
icebreaker. But we're going to be right behind it. As soon as 
they start cutting steel on the first replacement, we better 
start cutting steel on the second one as well so we don't end 
up with a one-trick pony, if you will, a single point of 
failure with only one heavy icebreaker.
    Senator Wicker. So you don't think there will be a gap, but 
it's something you can't guarantee to this Committee today?
    Admiral Zukunft. We cannot guarantee that.
    Senator Wicker. Thank you.
    The Chairman. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Chairman Sullivan and 
Ranking Member Peters, and thank you for allowing me to 
participate in this Subcommittee today.
    And thank you, Admiral, for being with us today. I am a 
very proud Granite Stater who has had the privilege of visiting 
the station in New Castle, and the men and women of the Coast 
Guard do a great job there.
    In your testimony, you talk about the important role that 
the Coast Guard plays in drug interdiction efforts, and I think 
a lot of my constituents would be surprised and concerned about 
the fact that the resources you have are limited and you 
haven't been able to go after everything that you might know is 
there.
    You also note that the Coast Guard and partner agencies 
interdicted more cocaine at sea than was removed at the land 
border and across the entire Nation by all Federal, State, and 
local law enforcement agencies combined.
    As you know, New Hampshire, like much of the country, is 
currently in the midst of a really truly devastating substance 
misuse epidemic. And in addition to prevention, treatment, and 
recovery efforts on the demand side of the crisis, we need to 
be doing everything we can to stop the drugs from coming into 
the country in the first place, the very work that you and the 
men and women of the Coast Guard are doing.
    Right now, a lot of heroin and fentanyl, that is at the 
heart of the current epidemic in New Hampshire, is coming 
across the southern border. But that's not the only place drugs 
are coming from. They're also coming from the northern border, 
in the mail, and, of course, as you have pointed out, by sea.
    I expressed last week in a Homeland Security and Government 
Affairs Committee hearing that I'm concerned about the creative 
nature of these drug cartels, and I'm concerned that if you 
build a wall along the southern border, while making major cuts 
to the Coast Guard, you're just incentivizing cartels to 
smuggle in more drugs in other ways, including across our 
maritime borders.
    So do you share my concern that drug cartels could expand 
their maritime operations if we're building a wall along the 
southern border at the same time we're slashing funds to the 
Coast Guard?
    Admiral Zukunft. I do share that concern.
    Senator Hassan. Thank you. The other thing I wanted to ask 
you to do was just expand a little bit more on the 
counterterrorism role that the Coast Guard plays, and 
particularly how you go about measuring its effectiveness, 
everything from where you're stationed right now and how we 
measure the Coast Guard's role and effectiveness in 
counterterrorism.
    Admiral Zukunft. Certainly. On the counterterrorism front, 
we've been a member of the national intelligence community 
dating back to 2001, and so we are embedded at every three-
level agency to look at what threats may be posed against the 
U.S.
    In terms of modes of transportation, there's a large 
fixation on the aviation mode, but if you harden the defenses 
in terms of being able to use an airplane, then you have the 
maritime shipping aspect.
    Senator Hassan. Yes.
    Admiral Zukunft. When you look at the millions of 
containers that arrive in our ports every year--so we work with 
Customs and Border Protection, the U.S. Coast Guard. We visit 
over 160 countries a year, ports with whom we do trade, to 
assure that they're complying with the International Port 
Security Standards. If they don't, they're demarshed. As soon 
as they're demarshed, ships will not trade in those ports 
because they know when they come to the United States, they're 
going to be delayed because we're going to do a very lengthy 
boarding to assure that that is a safe movement.
    If we have an indication warning that there may be 
something suspicious in one of those containers, before we 
created these counterterrorism teams, about all we could do was 
wait for that to enter port. We had a ship in New York called 
the Palermo Senator, and it gave off a radiological signature, 
but it is right now sitting in metropolitan New York, and it 
could have had a dirty bomb on it. This team would allow us to 
meet this ship way before it arrived, passed under the 
Verrazano Bridge, stopped the ship in place, determine what's 
onboard before that ship would even enter into U.S. waters, and 
that's what these teams do.
    Senator Hassan. Thank you very much.
    And thank you, Mr. Chair.
    The Chairman. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Thank you, Admiral, for your great work. Thank you for 
everything you do in Hawaii. I want to talk to you about 
District 14. And the question I have, there has been a lot of 
talk about interdiction, and I want to ask you a question at 
the sort of policy level and at the level at which you, as the 
Commandant, prioritize the utilization of resources.
    But to make it more specific, we have a couple of 378-foot 
cutters, we have four C-130s on the island of Oahu, and one 
might assume that they get moved into the Western Pacific to 
deal with issues in the South China Sea, to deal with fisheries 
management issues, to deal with contingencies related to the 
PACOM AOR, but, as you know, in fact, they're more often 
deployed to South and Central America for drug interdiction.
    And so my basic question is you have 11 statutory missions, 
how do you come to the conclusion, both as a technical matter, 
and then what is your judgment, and how do you reevaluate that 
over time about whether or not that's the best use of these 
resources?
    Admiral Zukunft. Great question, Senator. And so we look 
at, in intelligence-driving operations, and--but it's also 
intelligence-informed risk management. And so when we looked 
at, what are the incursion rates in our remote EEZs, you know, 
distant waters from the state of Hawaii? And we're seeing 
incursions of maybe 1 or 2 percent, rare events, and at great 
expense, we would patrol those waters, but, quite honestly, it 
has been years since we have actually encountered a vessel 
attempting to enter our Economic Exclusive Zone and plunder 
fish that are rightfully the U.S.
    Now, today, we're using Navy assets to patrol these distant 
waters with Coast Guard law enforcement teams. So when Navy 
ships were taken out of service that were otherwise patrolling 
for counterdrugs, they're not there anymore. So working with 
Pacific Fleet and the Third Fleet, every quarter they provide 
usually it's a DDG with a Coast Guard boarding team on it 
patrolling those waters.
    Senator Schatz. Sort of on their way back. I guess my 
question is it still seems to me that we could use a couple of 
cutters in the Pacific, not just because we can always use more 
vessels forward in the region, but also because of the specific 
Title 14 authority, and to the degree and extent that we're 
enforcing the law and trying to avoid some kind of kinetic 
situation in Scarborough or elsewhere in the South China Sea, 
that the Coast Guard assets could be put to good use.
    And my concern, to be precise here, is that the Coast Guard 
has gotten so good at the interdiction over so long a period of 
time--and congratulations on all of your success--that it seems 
to me that you continue to do what you do at this incredibly 
high rate of success, and yet it may not be what we need you to 
do in the AOR over a long period of time.
    I'm not suggesting you immediately change everything. I 
guess what I'm trying to get at is, how do you reevaluate this 
over time to determine that it's still in our national interest 
to send these cutters and these C-130s to South and Central 
America and not where I think most of us think many of our 
maritime challenges remain?
    Admiral Zukunft. So working with my DoD counterparts, and I 
put a proposal on the table of providing a one-ship presence, 
you know, 365 days out of the year in the East and South China 
Sea, depending on what our approach is as we look at contested 
claims, extraterritorial claims, in the East and South China 
Sea. At the same time, we have a tremendous Coast Guard 
bilateral relationship with our counterparts in the 
Philippines, with our counterparts in Vietnam, and with our 
counterparts in Indonesia, three key ASEAN nations that want to 
work with the Coast Guard.
    Senator Schatz. Right. But their Coast Guard is not 
anywhere--especially I'm thinking of the Philippines, and I'm 
happy about EDCA, and it seems to be actually continuing 
despite the rhetoric of the President there and all the rest of 
it, but it's not a Coast Guard in the sense that American 
citizens think of a Coast Guard. They don't have the capability 
that we have.
    Admiral Zukunft. No. The Philippine Navy does, since they 
have three of our former 378-foot HAMILTON-class cutters. 
Vietnam is taking delivery of one probably within the next 6 to 
8 months. So they're expanding on their capability. But I 
always look at the risk of a miscalculation, and that risk goes 
down considerably if it's a Coast Guard-Coast Guard encounter 
because right now if our Navy is operating in those waters, 
their first encounter is going to be a challenge by the China 
Coast Guard, not the PLA Navy, but the China Coast Guard. So 
might there be logic in rather having two coast guards 
encounter one another at sea?
    I have an open dialogue with my Chinese counterpart. In 
fact, they're trying to determine, ``How do we get to be like 
the United States Coast Guard?'' They merged four out of five 
services to form a coast guard. They are nowhere near where we 
are today in the United States Coast Guard.
    Senator Schatz. They could start by observing the rule of 
law.
    Admiral Zukunft. That would help.
    Senator Schatz. Thank you very much.
    The Chairman. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Admiral, it's great to see you. I am such a fan of the 
Coast Guard, and, fortunately, I've had the privilege of 
traveling all the way to Alaska and seeing in Senator 
Sullivan's state the enormous job that the Coast Guard does, 
basically it does the job for the Navy. That leaves the Navy to 
go elsewhere. In addition, you do all of your protection of the 
fishing fleet up there, and so forth. I've been to the Great 
Lakes with the Senator from Michigan, and it's just amazing 
what you do up there.
    I've seen your operations in the Caribbean and the Southern 
Pacific as you're going after drugs and you're going after 
migrants. And I often find that the United States Navy and the 
Coast Guard are working just like that so that the Navy may 
help you locate, and once you locate, you have the law 
enforcement authority to go and stop the ship.
    I've flown in your helicopters, showing how you shoot out 
the engines of a go-fast and I've gone with you in a go-fast 
after we go after another go-fast, and I'm just--I can't say 
enough good things.
    Then all of a sudden, a few weeks ago we suddenly hear in a 
budget coming out of the White House, in order to pay for a $54 
billion wall, that they're going to take and rob the maritime 
wall, the wall on the sea, which you provide, with a 14 percent 
cut. And we said this just can't be. They're going to take out 
more than a million dollars out of the Coast Guard. So about 
that time, these two Senators led a letter, and this Senator 
went to the floor and gave a speech about it.
    Now, we don't know if that really did any good, but when 
the skinny budget actually came out, it was silent as to the 
Coast Guard. However, the rumblings were that there were still 
going to be cuts coming out of the Coast Guard. So we've got to 
be very, very protective going forward because of the critical 
mission that you play not only here in the United States, but 
where you are supporting the military elsewhere in the world.
    Now, fortunately, also, as the Senator from Mississippi 
just reminded me before he left, and these two Senators 
reminded me, we have the last say because the President 
proposes and the Congress disposes.
    But I want to get on the record, what, Admiral, would a 14 
percent cut mean to the Coast Guard and its ability to secure 
the homeland and protect life and property?
    Admiral Zukunft. Well, when we looked at that proposal, and 
then there were some specifics within that, there were some 
areas we just could not cut. If you take a counterterrorism 
team, it has taken us 6 years to generate this high-end team. 
These are trained to Navy SEAL tactics, techniques, and 
procedures. These are only the best of the best, and we give 
them the absolute best equipment, and, in fact, much of what 
they do is in support of defense operations to begin with, but 
it was all funded with non-defense discretionary.
    They're cutting steel on a ninth National Security Cutter. 
Long lead time materials have been awarded. The contract has 
been let, and they are literally cutting steel as we speak. I 
can't recoup money from that either.
    So when you look at if you have to recoup from these 
specific items, now you have to look elsewhere, and the only 
other place you can look at, what variable costs do I have? And 
those are operating expenses. If you start cutting operating 
expenses, our ability to protect mariners in distress, our 
ability to secure our maritime borders, when Central America is 
besieged by the flow of drugs, which spawns violent crime, 
which spawns migration and a movement to our Southwest border, 
those are all the things that we have to look at cutting. We're 
not up in the Arctic anymore. And very, very painful, but 
unfortunately necessary decisions that we would have to make, 
and, again, all of this being pre-decisional.
    Senator Nelson. And what I learned with Senator Peters is 
you perform a unique service because so many people in the 
frozen Great Lakes, they get out there, and they're ice 
fishing, and all of a sudden they've fallen in. And who goes 
and rescues them? A Coastie goes out there and risks his life 
and pulls him out of that water of which they're about to have 
hypothermia.
    Tell me this, with regard to Florida, where 40 percent of 
the Coast Guard activity is in and around the Caribbean and all 
the activities down there in JIATF, as you try to track and go 
get the bad guys, whether it's drugs or whether it's people or 
whether it's potentially terrorists trying to come in, and with 
all the cargo and passenger vessels in all of the ports of 
Florida--take, for example, Jacksonville--Florida's economy is 
at stake if you get cut.
    So can you work with us, Admiral, as we try to keep this 
budget? Is that something that you can state here?
    Admiral Zukunft. I can state that unequivocally. I can also 
state your letters, your voice, the voice of my boss, my 
service secretary, you know, my relationship with the 
administration really begins and ends with Secretary Kelly. The 
advocacy that we have had for the United States Coast Guard in 
a pre-decisional matter, I have never in my 40 years of service 
have seen the unanimous support for our service. And voices do 
matter. And I am thankful. And I am sleeping well, Senator, 
that we will navigate our way through this as we look at the 
final budget when that rolls out in May.
    Senator Nelson. Thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman, and I want to take this opportunity to 
congratulate you and Senator Peters on your new roles as the Chairman 
and Ranking Member of this Subcommittee.
    I also want to welcome the Commandant of the Coast Guard. Admiral, 
thank you for joining us.
    We need look no further than the daily newspaper or the nightly 
newscast to see what an important role the Coast Guard plays in 
securing our maritime borders and protecting the safety of life and 
property at sea and on the Great Lakes.
    Just last week, the media reported that the Coast Guard Cutter 
Spencer returned home after seizing an estimated three thousand pounds 
of cocaine worth more than $92 million during a patrol in the Eastern 
Pacific.
    On Sunday, the Coast Guard Cutter Sockeye rescued 25 people from a 
charter fishing boat off of California, after the boat struck a 
submerged object and started sinking.
    These news stories show how vital the Coast Guard is to this 
country. Yet we also have the administration weighing cuts to the Coast 
Guard. This Senator is concerned.
    It's one thing to propose securing our borders and increasing 
military spending by $54 billion, but it's another thing entirely to 
even consider slashing up to $1.3 billion--roughly 14 percent--to the 
very military service that secures our vast maritime borders.
    Now, some have concluded from a DHS press release that the FY18 
budget sustains current Coast Guard funding levels, that the Coast 
Guard is out of the woods and safe.
    But if that's the case, then why is the Administration's budget 
completely silent with respect to the Coast Guard.
    The reality is when DHS talks about sustaining ``current funding 
levels,'' we have no idea whether they mean the funding levels Congress 
has enacted to pay for a ninth national security cutter and reequip the 
Coast Guard's 14 new maritime patrol aircraft, or whether they mean the 
funding levels that OMB typically pushes for in the formal budget 
request each year, which have not been adequate for Coast Guard 
acquisitions and operations.
    Admiral, the bottom line is if the priority is to secure our 
borders and increase military spending, then we should not be slashing 
their budget.
    Fortunately, we here in Congress will have the final say when it 
comes to funding the Coast Guard. With that said, it's my hope that 
we'll learn more about the Coast Guard's actual needs today because I 
think a thorough assessment will make the case for increased funding.
    Thank you, Mr. Chairman, and I look forward to hearing the 
admiral's testimony.

    The Chairman. Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Admiral, thank you for being here. Thank you for your 
service.
    Admiral Zukunft. Thank you, Senator.
    Senator Cruz. I want to bring to your attention an issue 
that's important to my home state of Texas, which is the 
Presidio International Rail Bridge connecting Texas and Mexico 
burned to the ground on February 29, 2008. The Texas Department 
of Transportation has developed plans for the reconstruction of 
the bridge and have been working with the Army Corps of 
Engineers on the project.
    However, my understanding is that the process has been 
delayed because the Coast Guard has asserted that the bridge is 
over a navigable body of water. And it's worth noting that the 
bridge is 712 miles from the Gulf of Mexico. And as you can see 
from the poster, the land is dry and would be unnavigable to 
any vessels. And I would like to ask if you would commit to 
working with my office to expediting the reconstruction of this 
bridge, which has significant impact on the state of Texas?
    Admiral Zukunft. Senator, you have my word, and from that 
picture, I do not see a navigable waterway. And perhaps that 
term is used a little bit too liberally, and especially if it 
inhibits the reconstruction of this critical node.
    Senator Cruz. Well, I appreciate your commitment to work 
with us on that, and I look forward to our working together to 
address this.
    Let me shift to a different issue, which is, as you're 
aware, our Nation's GPS system is used by a number of our 
critical infrastructure and key resource sectors. In 2014, the 
Department of Homeland Security publicly recognized that of the 
Nation's 16 critical infrastructure sectors, 15 of them use 
GPS. And should GPS be disrupted or even flicker for a few 
hours, the U.S. could potentially see widespread failure of 
cellular and telecommunications networks, disruption or failure 
of the power grid, breakdown of our financial system, or even 
potential failures in our air traffic control system, and first 
responder network failures.
    Do you have any concerns regarding the vulnerabilities of 
GPS? And do you see the need for a backup system?
    Admiral Zukunft. Senator, we had this concern back in 2008, 
2009, when authorization language shut down our LORAN stations. 
A low-frequency wave, if you will, which is very difficult to 
hack, by the way, but those signals were taken off the air, 
some of those towers, but not all of those, were dismantled, 
and the program was shut down. And it wasn't just for 
navigation, but, more importantly, for precision timing for 
financial transactions.
    So that is the state of our infrastructure, if you will, 
critical infrastructure, in the IT world, that we are solely 
dependent on GPS. And so there does need to be a serious 
dialogue about reconstituting something other than GPS, and 
certainly we look at eLORAN as a solution set to that.
    Senator Cruz. What do you see as the most viable path for 
going forward and developing a fully operable backup system 
using eLORAN or otherwise? And would a public-private 
partnership be one of the options that you think might make 
sense?
    Admiral Zukunft. Senator, I think that's certainly a very 
viable solution. This was really a cross-cutting. It cuts 
across transportation, it cuts across commerce, and so there 
are other key stakeholders in this as well. But we've been 
having these discussions now since those LORAN stations were 
taken off the air, and now we're nearly 10 years since that 
time.
    The time to move forward is really now on this. We would 
certainly welcome an interagency approach, but, more 
importantly, a solution to this problem set.
    Senator Cruz. Well, very good. Thank you, sir. And thank 
you for your leadership.
    Admiral Zukunft. Thank you, sir.
    The Chairman. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Admiral, I'm going to return back to the Great Lakes, and I 
just want to talk to you about a couple specific issues that 
are important to us in our region. As we've previously 
discussed, the Great Lakes have seen some record levels of ice 
cover in recent winters, although this last winter was fairly 
mild. But from 2013 to 2015 we had nearly complete coverage, 
which limited U.S.-flag cargo movements in the Great Lakes, and 
it's estimated it resulted in about $1 billion in lost business 
revenue for steelmakers, power plants, and other businesses 
because of that intense ice.
    The Coast Guard operates an aging Great Lakes fleet that 
includes only nine icebreaking-capable cutters, some of which 
were commissioned back in the 1970s, as you know. And while the 
Coast Guard took a very positive step in combating ice by 
launching the Mackinaw, I still remain concerned that the Coast 
Guard doesn't have adequate capacity to meet the icebreaking 
mission in the Great Lakes when we have these kinds of severe 
winters that we have seen recently, which is why I worked to 
include language in the 2016 Coast Guard authorization that 
authorized the design and construction of a new Coast Guard 
icebreaker.
    I was pleased that the Senate Appropriations Committee met 
my request to include $2 million for early stage acquisition of 
a new Great Lakes icebreaker in the Fiscal Year 2017 Department 
of Homeland Security bill, and I'm going to continue to work 
with my colleagues to keep pushing that forward.
    But I would like you to comment for the record, Admiral, 
just how important is your statutory mission to keep the Great 
Lakes channels and harbors open to navigation to meet the 
demands of commerce particularly during some of these severe 
winters?
    Admiral Zukunft. We've made headway these last 2 years in 
being able to extend the service life of those 140-foot 
icebreakers, and we're able to actually get ahead of ourselves 
because we had light ice years in 2015 and now in 2016. So we 
bought back some time without having push these resources too 
hard.
    We've also tiered the areas that absolutely require 
icebreaking service that are critical to commerce, and so by 
using that, we can better leverage the capability that we have. 
And then we have a bilateral agreement, a memorandum of 
understanding, with our Canadian counterparts if we have 
extreme icing conditions. What is not known is, what does the 
future foretell? We had two, as you very well know, back-to-
back very severe ice seasons. In fact, the one we had in 2014, 
we were pretty much--you know, everything we had was barely 
enough to keep the pace.
    I don't know what those weather patterns are going to be, 
but certainly what's happening in the high latitudes 
contributes to what happens in the middle latitudes, and as 
those waters are warming like we have never seen before, it 
does allow that jet stream to migrate south and literally 
flash-freeze the Great Lakes. And so we need to be mindful of 
that as we look into the future.
    Senator Peters. Can we meet mission requirements today?
    Admiral Zukunft. Yes. Those 140-foot icebreakers, this is 
probably the last service life extension we can do on those. So 
we bought ourselves some time, maybe 5 or 6 years at best. But 
we're going to have to look at a major recapitalization for 
this fleet. And we cannot assume away that winters that we had 
like this year and the last are going to be the trend for the 
future as well.
    Senator Peters. I appreciate your comments that we may see 
more heavy ice as a result of the changing jet stream. I've had 
conversations with our friends at NOAA, who also believe that 
some of their modeling suggests that that is indeed the case. 
It's still too early to know, but if we're not putting steel 
together now, as you mentioned in response to some of my other 
colleagues, we could get behind the curve, which would have a 
devastating economic impact, not just to the Great Lakes 
region, but the whole country, which depends on steel and ore 
coming through the lakes, as you're well aware.
    The one last issue that I just want to touch on that's 
something that you and I have spoken about at length as well, 
is the additional mission of the U.S. Coast Guard for oil 
response and pollution cleanup. I am particularly concerned 
about an aging pipeline that we have in the Straits of 
Mackinac, 60-plus years carrying oil, in what the University of 
Michigan study recently stated as the absolute worst place for 
an oil spill anywhere in the Great Lakes. The currents are 
incredibly strong and the volume of water that goes through the 
Straits of Mackinac are significant. In fact, they are equal to 
10 times that of Niagara Falls. So having an oil break in that 
pipeline would be devastating for water supply for 40 million 
people, not to mention Mackinac Island, our number one tourist 
attraction, is right there at Mackinac as well.
    But I'm concerned about freshwater throughout the Great 
Lakes region. We had a very damaging oil spill in Kalamazoo, 
which was over $1 billion worth of cleanup costs and 
freshwater, and the fact that we don't have a really good idea 
how to clean up freshwater versus saltwater.
    In the Coast Guard Authorization Act of 2015, we were able 
to put in language to assess oil spill response and cleanup 
activities in the Great Lakes. The full report is not due till 
2018, but would you care to comment as to the work that's being 
done there, and perhaps some of the concerns that you have in 
our ability to clean up oil in freshwater, particularly in 
places that can be challenging, like the Straits of Mackinac 
during good weather, and nearly impossible when you have thick 
ice?
    Admiral Zukunft. Yes. The biggest challenge we face right 
now, and it's not unique to freshwater, is products like tar 
sands and bitumen, dilbit. These are products that have the 
same specific gravity or less than water, which means it sinks. 
And now this product, it sinks, it gets pulled into a water 
intake, or you shut down a water intake that now is the water 
source, as you mentioned, 40 million people.
    I cannot state with any degree of reliability that we have 
the technology right now to be able to recover that and 
mitigate that before it would truly cause downstream and 
environmental harm. And that is our highest priority right now 
when we look at oil spill technology and removal technology as 
well. But this product in particular poses a very unique risk 
compared to the products that we've dealt with in the past.
    Senator Peters. Well, I know that you engage in research 
now, and facilities on the East Coast, and I also believe that 
you are in Michigan in the winter months, and others, drilling. 
It's certainly my hope that we can continue to work together 
and perhaps look at how we can marshal resources in public-
private partnerships as well as involving the academic 
community to do more research on oil spill cleanup in the 
freshwater setting because, unfortunately, we're likely to be 
confronted with these incidents, and they may increase with 
time. I hope that we will be active participants with you and 
perhaps even creating a research institute of some sort that 
would be able to give us more information. I believe you would 
be supportive of that effort if we find a way to get the 
resources and build the kinds of partnerships necessary?
    Admiral Zukunft. I would absolutely support that, Senator.
    Senator Peters. Thank you, Admiral. I appreciate it.
    The Chairman. Admiral, let me--I'm going to end the hearing 
with a few additional questions. I wanted to--as you and I have 
discussed previously, there have been some concerns in the 
Alaska fishing fleet about the Alternative Safety Compliance 
Program. And I just want to get your continued commitment to 
work with me and my office and the members of our fishing 
community on that. As you know, that's been a troubling kind of 
an overhang for a number of owners of our vessels, and the 
Coast Guard has--it has been slow to kind of get some of the 
regs out. We took up some legislation this last Congress to 
kind of push that out further. But can I get your commitment on 
continuing to work with that? That is something that I want to 
make sure--we all want safety, but at the same time, a number 
of my constituents have had concerns with that. And we've had 
good cooperation with you. I just want to continue that.
    Admiral Zukunft. Senator, yes, and this really begins with 
stakeholder engagement----
    The Chairman. Yes.
    Admiral Zukunft.--and whether it's alternative planning 
criteria, as you have mentioned. Another issue that we had 
talked about before, were guys operating in remote regions. We 
just recently, again listening to your constituents, 
consolidated all of the nine regions into one, so you don't 
need familiarization in nine different regions to hold a 
charter license. So, again, all of that done through 
stakeholder engagement, and we will do the same with 
alternative planning criteria as well.
    The Chairman. Great. I want to go back to the Arctic. I 
think you're seeing a theme here on the icebreakers, and the 
need, whether in the Great Lakes, whether in the Arctic. There 
has been a lot of interest--I also serve on the Armed Services 
Committee--a lot of interest with regard to our strategy there. 
Have you read the recent Department of Defense strategy that 
was produced just a couple months ago, updated Arctic strategy?
    Admiral Zukunft. Senator, I have, and I just read, which 
was released today, from the Council on Foreign Relations, the 
work of the Arctic Task Force. And so I really find a lot--you 
know, near-term relevancy in the work created by the Arctic 
Task Force. But I have read both of these documents.
    The Chairman. So I asked this in an Armed Services hearing 
recently. One of the elements of that new strategy is to 
conduct--kind of to look at our strategic interests in the 
Arctic, be it resource development, be it fisheries, be it 
protecting the environment, be it increased vessel traffic, all 
of which is happening. Talking about the ability to conduct 
FONOPS, do you think we have the ability to conduct Freedom of 
Navigation Operations in a way commensurate, say, with the 
Russians if they were trying to shut down the shipping lanes in 
that part of the world?
    Admiral Zukunft. We have a good model to begin with, with 
Canada. They make the same claim with the Northwest Passage, 
our key ally, Canada. Might we be able to approach this rather 
than forcing Freedom of Navigation, but maybe multilaterally or 
bilaterally, that would provide United States access through 
these waters?
    We might want to look at a different model, but my biggest 
concern right now is the 386,000 square miles that the Coast 
Guard has mapped, our extended continental shelf, half of the 
30 percent of the world's natural gas, half of the 13 percent 
of the unexploited oil that we hear about is in the Arctic is 
actually in our EEZ and in our extended continental shelf, 50 
percent of those reserves.
    But right now, we have not ratified the Law of the Sea 
Convention. We do not have a mechanism, if you will, where we 
can lay claim to what is clearly our extended continental shelf 
at a point in time where Russia is now declaring a good portion 
of the Arctic Ocean all the way up to the North Pole. So if we 
are not up there operating, if we are not up there looking out 
for our sovereign interests, which means we are thereby 
standing on the sidelines.
    But those are two of my immediate concerns. But I would 
like to at least approach Freedom of Navigation diplomatically 
first and not as a show of force initially.
    The Chairman. Yes. OK. But it does mention in the new DoD 
strategy to be ready to have the capacity to conduct those if 
need be.
    Admiral Zukunft. Yes, sir.
    The Chairman. My concern, particularly given what you just 
mentioned about the icebreakers and essentially only having 
one, is that we don't have that capacity. I think it's very 
clear that we don't have that capacity, so that's going to be a 
focus of mine to make sure that we're working to enable us to 
be able to do that.
    Another thing that came out of the NDAA recently was--just 
this last NDAA--was the requirement both from the Secretary of 
Defense in conjunction with the Secretary of Homeland Security 
for the designation of what's called a strategic Arctic port, 
and that is something that we certainly want the Coast Guard to 
be part of, but if you can look at that, the deadline for that 
report for the initial designation, is June 21, 2017. That's 
just 3 months away.
    So I wanted to highlight that for you, and I know that 
that's something we're going to be following very closely both 
from this committee's perspective and jurisdiction and also 
from the Armed Services jurisdiction. Can I get your commitment 
to work with the Secretary both of Defense and Homeland 
Security on that legal requirement from the last NDAA?
    Admiral Zukunft. Senator, we are. In fact, we're already 
working, that's been delegated down to Army Corps of Engineers, 
U.S. Coast Guard, and you're very familiar with the draft 
work----
    The Chairman. Yes.
    Admiral Zukunft.--that the Army Corps has completed. We're 
very familiar with that as well. I am confident we'll be able 
to make this deadline.
    The Chairman. Great. Thank you. Just following up on 
Senator Schatz's comment when he said just relooking at mission 
orientation, given our assets. Given the lack of icebreakers 
that we have, and the need, whether it's up off the coast of 
Alaska or in the Great Lakes near Michigan, does it make sense 
to have a Coast Guard, a heavy icebreaker, go down to 
Antarctica every year?
    Admiral Zukunft. We have strategic interest in the Arctic. 
We're part of that treaty. I don't know what China's intentions 
are long term in Antarctica. There is a provision to do no 
exploitation work, but what is that going to look like 20, 30 
years from now. But if we are not a player down there, then we 
are an observer. And this is not the point in time, I think, 
it's in our best interest to be distant virtual observers and 
not key participants in upholding the treaty in Antarctica.
    The Chairman. Let me just conclude my questioning and the 
hearing with the poster board here that I began with, and you 
mentioned it. This is actually from a Coast Guard slide. Some 
of your staff were good enough to show this to me recently. But 
as you noted, Admiral, the United States' EEZs, 13 separate 
areas spread across nine time zones. You see everything from 
Alaska, which I think is your biggest one certainly, but a 
whole host of areas, Hawaii, the Great Lakes. If we are 
successful and can budget the completion of the acquisition of 
nine National Security Cutters, 58 Fast Response Cutters, and 
24 Offshore Patrol Cutters, does that give you enough assets to 
conduct the mission that, let's face it, that's about a quarter 
of the entire globe right there on that map? Do you have enough 
assets to do the job in those areas? You have a very broad 
mission base.
    Admiral Zukunft. Yes. Well, one more, so it's 25 Offshore 
Patrol Cutters, but not that that would be the tipping point. I 
can't project what the world, that world, is going to look like 
in 20 years, but in 20 years, we will have built out this fleet 
of 25 Offshore Patrol Cutters. In fact, all that entire fleet 
will be fully operational and capable.
    What is the role of transnational criminal organizations? 
What is our role with China? What is the role of Russia? We 
were called to send cutters over to the Mediterranean. We still 
face the biggest flow of refugees in the world. There could be 
other nations that fail in this hemisphere and we see a mass 
migration.
    So it is critical. If you have what I call a hot production 
line where you're already pulling ships off that product line--
in fact, when we built our seventh National Security Cutter, 
the Kimball, that will christen in Hawaii next year, that's 
going to cost less than the fourth National Security Cutter. 
The ninth National Security Cutter will cost less than the 
seventh.
    So there's an advantage if you have a hot product line and 
then the world around you has changed, you can do that at a 
very affordable cost rather than going on a hiatus and then 
think you can jumpstart a program where you suddenly realize 
you need more capacity.
    So in the next decade, as these product lines start to 
build out, we need to look at the world again. Where is the 
Navy? Is the Navy going to have 355 ships? Or do they count 
some of our ships toward their 355? Those are some of the 
strategic dialogues we need to have not just with this 
committee, but obviously with House and Senate Armed Services 
Committee as well going forward in terms of, what is the right 
fleet mix for our Nation as we look at global maritime threats?
    The Chairman. Well, thank you very much for that comment. 
And I can assure you, as the Chairman here, and I think I can 
speak for the Ranking Member, and both of us serve on the Armed 
Services Committee as well, that we want to work closely with 
you and your team on these critical issues. We also want to 
work closely with you on the deployment and stationing of these 
vessels where it makes the most strategic sense. If you look at 
that map, I certainly think there is a lot of strategic sense 
to cover more of that territory up in Alaska with the 
increasing traffic and increasing strategic interests.
    But we look forward to working with you on all of these 
issues, Admiral, and again appreciate your service and those of 
the entire Coast Guard.
    This hearing is adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Admiral Paul F. Zukunft
    Question 1. One of the perils of climate change is, as the 
intensity of hurricanes and tropical storms increases over time, the 
damage forces us to divert more and more money and effort to repairs, 
resulting in a vicious cycle that erodes the resilience of coastal 
communities. We have seen this with Katrina, Rita, Sandy, and with 
Hurricane Matthew last fall, which devastated coastal communities from 
Florida up to North Carolina, claiming at least 47 lives in the United 
States. What was the effect of damage from storms like Matthew on Coast 
Guard facilities, and how has it impacted the ability to do their job?
    Answer. Hurricane Matthew damaged 32 Coast Guard facilities across 
the Southeast, displacing or impacting operations at 22 units. 
Significant wind and flooding damage, as well as shore erosion was 
found at Coast Guard locations from Florida to Virginia. Coast Guard 
repair teams made repairs at many of these facilities to remove 
immediate safety hazards and facilitate continued operations.
    The estimated cost to repair Coast Guard infrastructure affected by 
Hurricane Matthew was estimated at $93 million. The $15 million 
provided by Congress in the FY 2017 Consolidated Appropriations Act 
will address our most urgent needs and the remainder will be 
prioritized within the Service's Shore Construction Backlog.

    Question 2. My understanding is that the true workhorses of your 
interdiction missions in the Caribbean are your Medium Endurance 
Cutters. Most of them were commissioned over 50 years ago, yet they're 
still out there today. The new Offshore Patrol Cutters will come on 
line in the next few years to begin replacing them, but you need those 
Medium Endurance Cutters to keep working until then. How would you 
describe the current situation regarding the reliability and mission 
readiness of the Medium Endurance Cutters fleet, and what challenges 
are they imposing on accomplishing the Coast Guard's interdiction 
missions?
    Answer. As the major cutters age, it becomes harder to predict 
impending component failure. As an example of some reliability 
challenges we face, the 210,-Medium Endurance Cutter (MEC) fleet 
experienced 107 lost operational days due to unplanned maintenance in 
2016 and the 270,-MEC fleet experienced 161 lost operational days. The 
Offshore Patrol Cutter (OPC) will replace the Coast Guard's 210, & 270, 
MECs, and will ultimately provide the majority of the Coast Guard's 
offshore surface capacity, bridging the capabilities of the high-
endurance 418, National Security Cutters and the 154, Fast Response 
Cutters. Last year we awarded a contract for OPC detail design and 
construction, and I am pleased to report that this acquisition is on 
track.

    Question 3. What is the single most important resource the Coast 
Guard needs today, but doesn't have?
    Answer. I am thankful to Congress and the Administration continuing 
to address the Coast Guard's most pressing resource needs. The funding 
provided in the FY 2017 Consolidated Appropriations Act significantly 
advanced two of our highest recapitalization priorities: the Offshore 
Patrol Cutter and a new heavy icebreaker.
    Last year we awarded the contract for the Offshore Patrol Cutter, 
and we are making great progress in our effort to recapitalize our 
aging Medium Endurance Fleet. These ships will be the backbone of our 
surface fleet for the foreseeable future.
    We have also come a long way towards meeting our goal of a modern 
fleet of icebreakers, which is critical given the expected increase in 
mission intensity in the Polar Regions. We have made great strides in 
accelerating the heavy icebreaker acquisition, and the funding provided 
in FY 2017 will continue that progress. Our collaboration with the Navy 
is a recipe for success and will leverage the expertise of both 
organizations.
    While these new assets are critical to our operational success, our 
people are truly our most important resource. Over the past few years, 
we experienced some recruiting challenges that have impacted our 
workforce, but that tide is turning and I am confident we have positive 
momentum to fill our ranks with the workforce we need to meet the 
demands of the 21st century.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Admiral Paul F. Zukunft
    Question 1. On March 11, 2015 the TRICARE Operations Manual was 
amended to include language which prohibited active duty family members 
from enrolling in TRICARE Prime Remote if they resided in a Prime 
Service Area. As a result of this change in policy, Coast Guard 
families stationed southwest Washington and northwest Oregon became 
ineligible for TRICARE Prime Remote and lost access to their Primary 
Care Manager. A survey conducted by the Sector Columbia River Health 
Services Clinic in October 2016 revealed the following:

  <bullet> 30 respondents had family members who had not been assigned 
        a Primary Care Manger.

  <bullet> 48 respondents had family members who had to wait greater 
        than 30 days for a new patient appointment.

  <bullet> 62 respondents indicated they had difficulty obtaining a 
        Primary Care Manger.

    In an oversight hearing last year, you committed to me that you 
would work to correct the designation of the Sector Columbia River 
Health Services Clinic and restore access to TRICARE Prime Remote for 
families stationed in southwest Washington and northwest Oregon. Please 
outline specific actions the Coast Guard has taken in the year that has 
lapsed since I initially engaged
    Answer. The Coast Guard is committed to ensuring quality healthcare 
for our workforce and their families. My Chief Medical Officer has 
visited Sector Columbia River and met with members of the command and 
beneficiaries to discuss their concerns regarding access to healthcare. 
As a follow on to that meeting, she met with senior leaders from the 
Defense Health Agency (DHA) and shared these concerns.
    Additionally, my Deputy Commandant for Mission Support engaged with 
VADM Bono (DHA) on the possibility of replicating what is done in other 
similarly remote locations. As DHA investigates that possibility, we 
are continuing to identify alternate solutions that will improve access 
to quality healthcare for Coast Guard members and their dependants with 
consideration for negative impacts on the community.

    Question 2. You have the authority and responsibility to ensure the 
Sector Columbia River Health Services is correctly designated for the 
services it provides. Currently, the Clinic is incorrectly designated 
as a military treatment facility with a capacity to treat service 
members from other branches, retirees, and military dependents. The 
clinic undisputedly meets the criteria within the TRICARE Operations 
Manual for designation as a ``small government clinic . . . not capable 
of primary care management functions . . . that only allows active duty 
enrollment.'' I sent a letter to your office on March 3 asking you to 
correct the designation. Why has the Coast Guard still not corrected 
the designation?
    Answer. My staff is currently working towards ensuring the clinic's 
designation accurately represents the medical care offered.

    Question 3. Please provide your specific plan and actions you will 
take to correct the designation of the Sector Columbia River Health 
Services Clinic.
    Answer. I am committed to ensuring all members and their families 
receive quality healthcare. My Medical Officer has been actively 
involved with senior leadership from the Defense Health Agency to 
develop appropriate next steps. Additionally, my Deputy Commandant for 
Mission Support recently discussed with VADM Bono (DHA) the possibility 
of replicating other remote location policies in the Astoria area. 
Moving forward, we will continue to remain closely engaged with 
District D13 personnel as a course of action is being developed.

    Question 4. In November last year the Canadian Government granted 
approval for the Kinder Morgan Trans Mountain Expansion Project. The 
expansion will nearly triple capacity of the Trans Mountain Pipeline 
from 300,000 to 890,000 barrels of crude oil per day which will 
increase tar sands oil tanker traffic along the U.S. Pacific Coast a 
minimum of seven-fold. Please provide the Coast Guard's plan for 
additional investment in oil spill prevention and response resources 
that will be made in preparation for increased tar sands oil traffic in 
Puget Sound.
    Answer. The Coast Guard established the Joint Marine Pollution 
Contingency Plan (JCP), a bilateral agreement for planning, 
preparedness, and responding to harmful substance incidents in the 
contiguous waters along shared marine borders. The JCP contains a 
Canada-U.S. Pacific (CANUSPAC) annex specific to response procedures in 
the Canadian/U.S. Pacific region. The USCG has and will continue to 
utilize this collaborative mechanism to ensure proper planning for 
potential spills to include the Trans Mountain Pipeline expansion.
    The Coast Guard directs an Area Committee comprised of federal, 
state, and local agencies as well as federally recognized Indian Tribes 
in drafting Area Contingency Plans capable of removing a worst case 
discharge and mitigating or preventing a substantial threat of such a 
discharge in U.S. coastal zones. The Area Committee, under the 
direction of the Coast Guard on-scene coordinator, is implementing 
changes in potential worst case discharge scenarios associated with the 
proposed Trans Mountain Pipeline expansion (i.e., transiting tanker 
ships and catastrophic pipeline system failures). To date, the Area 
Committee serving the Puget Sound area is aware of the pipeline 
expansion and has engaged in preliminary discussions.
    Additionally, Coast Guard Sector Puget Sound is heavily engaged 
with the Washington Department of Ecology's Vessel Traffic Safety 
Assessment (VTRA) subcommittee. The purpose of the VTRA is to evaluate 
risks posed by infrastructure projects affecting the maritime domain. 
This includes terminal projects related to the Trans Mountain pipeline 
expansion. The VTRA is designed to inform tribes, local governments, 
industry and nonprofit groups in Washington State and British Columbia 
on risk management options commensurate with trends in commercial 
vessel traffic.

    Question 5. How many oil spill response organizations have been 
classified by the Coast Guard to clean up tar sands oil?
    Answer. While tar sands (diluted bitumen) may initially float, 
weathering or sedimentation may eventually cause it to sink. The Coast 
Guard has classification programs for both floating and nonfloating 
oils. Currently, the Coast Guard has approved four nonfloating oil 
spill response organizations (OSROs). Moreover, ten classified oil 
spill response organizations (OSROs) are capable of responding to 
floating tar sands oil in the state of Washington.

    Question 6. How many of those oil spill response organizations 
which are classified have assets in Washington state?
    Answer. Two nonfloating oil classified OSROs maintain assets in 
Washington state and are capable of responding to nonfloating tar sands 
oil. Two additional OSROs, with assets in Washington state, have 
applied for the nonfloating oil classification in Puget Sound and are 
currently being evaluated by the Coast Guard.

    Question 7. Puget Sound and the Strait of Juan de Fuca are 
designated as a ``High Volume Port Area.'' Under this designation the 
Coast Guard must require oil shipping companies to stage additional oil 
spill response, recovery, and oil storage infrastructure. What 
additional assets has the Coast Guard deployed in the Strait of Juan de 
Fuca and Puget Sound High Volume Port Area?
    Answer. The Coast Guard's District 13 now owns two Dynamic Inclined 
Plane (DIP) Skimming Systems which are capable of conducting fast water 
oil recovery and transportable via the Coast Guard Cutter HENRY BLAKE. 
In addition, two OSROs have met the classification standards outlined 
in the 2016 OSRO Guidelines for the Strait of Juan de Fuca and Puget 
Sound HVPA, and possess various types of equipment to include boom, 
temporary storage systems, skimmers, response vessels, and response 
personnel.

    Question 8. The Coast Guard currently calculates an oil spill 
response organization's response time compliance using ``best case'' 
on-scene weather. This sets up locations such as the outer coast 
peninsula of Washington state for failure in the event of an oil spill. 
Please provide the weather, environmental, and seasonal data the Coast 
Guard uses to calculate oil spill response time compliance.
    Answer. Oil Spill Removal Organizations (OSROs) are required to 
meet certain response times as per 33 CFR Sec. 154.1045, Sec. 154.1047, 
Sec. 155.1050, Sec. 155.1052, Sec. 155.5050 and Sec. 155.5052. The 
regulations set the response times for classification. The Coast Guard 
Response Resource Inventory (RRI) computes response times for 
classification programs by examining the time for resources to arrive 
on scene from the point of notification.

    Question 9. Why does the Coast Guard selectively use certain 
weather data to calculate response time compliance?
    Answer. The Coast Guard does not model various weather or 
environmental data to calculate oil spill response times.
    The only reference to weather in the vessel and facility response 
plan regulations pertains to equipment, such as boom, identified in a 
response plan. This equipment must be capable of operating in the 
conditions expected within the geographic area in which a vessel and/or 
facility operates. These conditions vary widely based on the location 
and season. For example, vessels moving from the ocean to a river port 
must identify appropriate equipment designed to meet the criteria for 
transiting oceans, inland waterways, rivers and canals. This equipment 
may be designed to operate in all of these conditions.
    Lastly, a vessel or facility plan holder must refer to the 
applicable area contingency plan (ACP) to determine if ice, debris and 
weather-related visibility are significant factors in evaluating the 
operability of equipment.

    Question 10. Following the release ``Polar Sea Assessment'' in 
January this year the Coast Guard recommended to decommission the POLAR 
SEA and pursue a tailored rolling recapitalization of the POLAR STAR 
for a period of 7-10 years. A ``rolling recapitalization'' has never 
been used by the Coast Guard to extend the service life of a vessel. 
Please provide the Coast Guard's recapitalization timeline and work 
plan for the POLAR STAR.
    Answer. The Coast Guard has begun evaluating the benefit/cost ratio 
of a Limited Service Life Extension Project (SLEP). A timeline and work 
plan for a potential SLEP of POLAR STAR would follow, as appropriate, 
once a way ahead is decided.

    Question 11. Please provide how this plan will ensure there is no 
lapse in U.S. icebreaking capacity.
    Answer. A timeline and work plan for a potential SLEP of POLAR STAR 
would follow, as appropriate, once a way ahead is decided.

    Question 12. How will the Coast Guard ensure the vessel will be 
operational and service ready during the ``rolling recapitalization'' 
to ensure it can fulfill its seasonal obligation for Operation Deep 
Freeze in Antarctica?
    Answer. The Coast Guard's commitment to fulfill its seasonal 
obligation for Operation Deep Freeze in Antarctica will remain the 
highest priority as we consider our plans for POLAR STAR.

    Question 13. The Coast Guard was not mentioned once by name in the 
Fiscal Year 2018 Presidential budget blueprint. The Coast Guard's Human 
Capital Strategy specifically underscores the critical importance in 
developing and investing in the Coast Guard's workforce of tomorrow. 
While recapitalization of the Coast Guard cutter fleet is vital to 
operational success-the men and women of the Coast Guard are the 
service's most valuable resource. I am concerned that the Coast Guard 
will not be able to invest support services for its workforce given its 
growing operational demands. How does the Coast Guard plan to expand 
childcare services for Coast Guard families?
    Answer. The Coast Guard is actively advertising the Family Child 
Care (FCC) program as an option for families in need of child care. 
Additionally, the Coast Guard is exploring the feasibility of expanding 
Coast Guard subsidy eligibility to include service members using Coast 
Guard Child Development Centers (CDCs). In FY 2017, the Coast Guard 
conducted an internal review to determine if the type of programming 
offered at its CDCs met the needs of the communities where they were 
located. In response, most CDC part-day preschool programs were 
transitioned to full-time services.

    Question 14. Does the Fiscal Year 2018 budget allow for the 
expansion and establishment of child development centers?
    Answer. The Fiscal Year 2018 budget does not include new funding 
for the expansion and/or establishment of child development centers.

    Question 15. How much funding has the Coast Guard allocated to 
childcare support services each year for the last 10 fiscal years? 
Please separate the funding the Coast Guard has allocated for child 
development centers from the funding the Coast Guard has allocated for 
the childcare subsidy.
    Answer.

------------------------------------------------------------------------
                                     Subsidy                 CDC
------------------------------------------------------------------------
2008                                    $1,143,085              $172,088
------------------------------------------------------------------------
2009                                    $1,739,462              $305,897
------------------------------------------------------------------------
2010                                    $2,068,245              $251,349
------------------------------------------------------------------------
2011                                    $2,261,385               $48,835
------------------------------------------------------------------------
2012                                    $2,526,341            $1,057,009
------------------------------------------------------------------------
2013                                    $3,887,027              $656,926
------------------------------------------------------------------------
2014                                    $4,048,464              $651,450
------------------------------------------------------------------------
2015                                    $5,723,471              $454,891
------------------------------------------------------------------------
2016                                    $4,686,895              $716,302
------------------------------------------------------------------------
2017                                    $3,452,000             *$317,981
------------------------------------------------------------------------
* Partial FY funding for CR period

    Question 16. What is the Coast Guard doing to identify and analyze 
future locations for establishment of new child development centers?
    Answer. As the service reviews the need for new or expanded CDCs, 
qualified projects become part of our shore facilities requirements 
list. Currently one such project on the list is $12.3M to construct a 
new facility for Petaluma.

    Question 17. What specific metrics, data, and criteria does the 
Coast Guard use to determine where to establish a child development 
center?
    Answer. We track utilization trends, child development center 
waitlist numbers, and other community generated data that reflect need. 
In addition, we track subsidy program utilization to identify which 
locations have the most need for child care services.

    Question 18. How much does it cost for the Coast Guard to establish 
and sustain a child development center?
    Answer. The Coast Guard has adopted DoD standard designs for small, 
medium, and large child development center facilities. The Coast Guard 
estimates a minimum of 128 square foot per child, to include classroom, 
playground, and common areas. Costs to establish and maintain a child 
development center vary based on location, property, new build versus 
renovation, established infrastructure, personnel costs, facility 
capacity, security, and other factors.

    Question 19. Please provide how the Coast Guard will continue to 
allocate funds to invest in childcare services to support Coast Guard 
families.
    Answer. The Coast Guard is currently reviewing its funding 
practices under the Human Capital Strategy to assure that annual 
program funds are being used most efficiently and effectively.

    Question 20. Earlier this year the Coast Guard Cutter STRATTON 
embarked on its first full deployment with its own small unmanned 
aircraft system to support its missions. There has been strong bi-
partisan support for unmanned systems aboard the National Security 
Cutter fleet as a way to expand intelligence, surveillance and 
reconnaissance without breaking the budget. Please provide the results 
and operational successes with the small unmanned aircraft system 
deployed on the Coast Guard Cutter STRATTON.
    Answer. The installed sUAS conducted approximately 280 surveillance 
hours for the CGC STRATTON over its inaugural two-month deployment. The 
highlight of the sUAS testing effort was its ability to provide 
tactical situational awareness via real-time full-motion video during 
three interdiction events that ultimately seized over 5,000 lbs of 
illicit contraband.

    Question 21. Does the Coast Guard currently plan to outfit every 
deployed National Security Cutter with small unmanned aircraft system?
    Answer. The current sUAS and NSC program baselines include the 
requirement to install shipboard sUAS infrastructure on eight NSCs.

    Question 22. If so, please provide the Coast Guard's plan and 
timeline for expanding small unmanned aircraft systems on the entire 
National Security Cutter fleet.
    Answer. The USCG plans to release an RFP in the fourth quarter of 
FY 2017 with an award targeted for FY 2018 to establish a multi-year 
Indefinite Delivery Indefinite Quantity (IDIQ) contracting vehicle to 
identify pricing for installation and price of yearly operations. 
Initial installation schedule will be dependent on NSC availability, 
delivery schedule, and availability of appropriations.

    Question 23. Does the Coast Guard plan to outfit icebreakers with 
small unmanned aircraft systems?
    Answer. We are in the process of refining new heavy polar 
icebreaker operational requirements.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        Admiral Paul F. Zukunft
    Question. Adminiral Zukunft, in Minnesota we see the importance of 
Coast Guard operations on Lake Superior and along the Mississippi river 
every day. By protecting our borders, combating drug trafficking, 
safeguarding our environment and responding to disasters, the Coast 
Guard makes life better in Minnesota. We will never forget that when 
the I-35W Bridge tragically collapsed in 2007, Coast Guardsmen were 
among the first responders on the scene to assist in the rescue of 145 
injured survivors and help maintain safety on the water in the 
following days and weeks. As you know, there have been proposals to cut 
$1.3 billion from the Coast Guard's Fiscal Year 2018 budget. In your 
response to Ranking Member Nelson's question, you stated that the Coast 
Guard has many fixed costs that cannot be trimmed so the majority of 
the cuts would have to come from operations. Can you provide examples 
of the types of operations the Coast Guard currently performs in 
Minnesota that might have to be cut if the proposed budget cut becomes 
law?
    Answer. The FY 2018 budget increases discretionary funding levels 
by 2.5 percent over the FY 2017 enacted appropriation, which will fully 
sustain day-to-day operations and planned investments in the 
Acquisition Construction, & Improvements account.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Admiral Paul F. Zukunft
    Question 1. The Coast Guard has played a critical role in our 
country's safety and security for 227 years. The Coast Guard, however, 
is the only uniformed service without a national museum. The other 
branches all have museums where Americans and visitors from around the 
world can learn more about their history and traditions. Thankfully, 
we're righting that wrong. Through this committee, we've made sure 
Congress finally recognizes the importance of the museum and helps get 
it off the ground--just as it has done for other branches. Plans are 
now being finalized for this museum in New London. The facility, I 
understand, will also be a training center for Coast Guard personnel 
that can help the Coast Guard fulfill its mission. Can you describe the 
importance of creating a monument to the brave men and women of the 
Coast Guard--something the service has long been denied?
    Answer. As I have testified in the past, the story of the Coast 
Guard is one that needs to be told. We are grateful that the National 
Coast Guard Museum Association is taking the lead and raising funds to 
tell that story.

    Question 2. Can you discuss how critical it is that the Federal 
Government serve as a partner on this vital undertaking, just as it has 
for all the other branches' museums?
    Answer. I fully support the National Coast Guard Museum project in 
New London. Close partnership with the National Coast Guard Museum 
Association is critical to the success of this project, and the Coast 
Guard continues to make its experts and artifact collections available 
to the Association.

    Question 3. Even with the change in administration--and many 
worrisome changes in priorities--can we get your commitment to work 
with the City of New London, state of Connecticut and other 
stakeholders to make this museum a reality?
    Answer. I will continue to work with stakeholders to advance the 
National Coast Guard Museum project. The National Coast Guard Museum 
Association's plan to complete construction by 2022 is dependent upon a 
number of factors, including its ability to raise funds through 
donations. The Coast Guard is not involved in the construction of the 
proposed National Coast Guard Museum facility, but will continue to 
make its experts and artifact collections available to the National 
Coast Guard Museum Association to support this effort.

    Question 4. In early March, the Washington Post reported that the 
Trump administration planned to propose slashing funds for the Coast 
Guard by $1.3 billion. That cut would have been 12 percent of the 
agency's budget. In mid-March, the administration released its 
``skinny'' budget. There were no cuts proposed to the budget. There was 
also no mention whatsoever of the Coast Guard in a document ostensibly 
billed as ``a message of American strength, security, and resolve.'' 
After the skinny budget was released, DHS put out a news release that 
did mention the Coast Guard, saying it ``sustains current funding 
levels.'' What impact would a flat funding level have on the Coast 
Guard?
    Answer. The FY 2018 budget increases discretionary funding levels 
by 2.5 percent (after accounting for rescissions of prior year balances 
and multi-year funds in the FY 2017 baseline) over the FY 2017 enacted 
appropriation.

    Question 5. Shouldn't we be increasing our investments in this 
important agency?
    Answer. The FY 2018 budget increases discretionary funding levels 
by 2.5 percent (after accounting for rescissions of prior year balances 
and multi-year funds in the FY 2017 baseline) over the FY 2017 enacted 
appropriation.

    Question 6. One area where we must invest includes polar 
icebreakers. We have two of these for the Arctic; Russia reportedly has 
20 at least. Does a flat budget further cede control of the Arctic to 
Russia?
    Answer. The acquisition program to deliver a new icebreaker in 
Fiscal Year (FY) 2023 is well underway. If Congress enacts the 
President's request for $19 million in 2018, the program will remain on 
schedule. The $150 million included in Defense funding provided in the 
FY 2017 Consolidated Appropriations Act will also keep us on track to 
award the contract for Detail Design and Construction in 2019.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                        Admiral Paul F. Zukunft
    Question 1. Admiral Zukunft, in your appearance before the 
Subcommittee, you indicated that you had been working on developing 
some options for the Coast Guard to use cutters and other resources to 
further our national security interests in the East and South China 
Seas. Could you elaborate on what these policy options look like, 
including if this would include a more routine Coast Guard presence in 
the region?
    Answer. The U.S. Coast Guard's unique authorities, capabilities, 
competencies, and partnerships enable us to meaningfully engage with 
our coast guard counterparts in the Asia-Pacific region. In service to 
DoD and if requested, we can divert teams, subject matter experts, and 
liaison officers to the region, however, if these operations were to 
become routine, the tradeoff would result in reduced presence and 
support for our core homeland security missions.

    Question 2. What are the major obstacles to executing these policy 
options, including host nation support and interagency consensus on the 
role of the Coast Guard in the region?
    Answer. A cutter deployment to the region reduces the operational 
availability of our most capable asset, the National Security Cutter, 
and must be weighed against the priority to support homeland security 
missions, including drug and migrant interdiction activities that 
address the southern border priorities of the Administration.

    Question 3. You and I visited Air Station Barbers Point and we saw 
the need for investment in the hangars and other facilities to support 
the C-130Js the Coast Guard needs for long endurance operations in the 
Western Pacific Can you tell me how our Coast Guard bases in Hawaii fit 
into your strategy for the Western Pacific?
    Answer. Coast Guard facilities in Hawaii serve as the central 
logistics hub and operational launching point for resources located in 
the region. This enables our assets to reach further into the Western 
Pacific than a stateside asset. For example, Air Station Barbers Point 
provides the only USCG aviation assets in HI and is responsible for 
patrolling over 12 million square miles of open ocean, atolls, and 
islands governed by the U.S. USCG C-130 aircraft additionally patrol as 
far west as Guam and provide additional support to ensure the sanctity 
of the Micronesian EEZ. The Coast Guard presence in Hawaii provides the 
citizens of Hawaii with the same 24/7/365 maritime service as every 
other U.S. coastal state, while also providing a strategic staging 
point for Coast Guard presence in the western Pacific.

    Question 4. And what is your plan for investing in the facilities 
and capabilities out there so you have what you need to conduct 
operations in support of that strategy?
    Answer. The Coast Guard funds necessary infrastructure improvements 
that are required to accommodate a newly acquired asset in advance of 
the asset's arrival to a given facility. Existing Coast Guard 
facilities are also prioritized for recapitalization consistent with 
available funding.

    Question 5. At a minimum, I believe Air Station Barbers Point needs 
a liquid oxygen facility, propeller shop, spare propeller and engine 
storage area, and additional mission system support equipment to 
support day-to-day aircraft maintenance on any new C-130Js. Does the 
Coast Guard plan to budget for those improvements to keep the delivery 
of new C-130Js on track to Hawaii? If so, when can we expect those 
improvements to be made?
    Answer. Yes. Facility improvements at Air Station Barbers Point 
have already begun. The Coast Guard recently completed a $5M freshwater 
rinse facility that provides a significant improvement in corrosion 
prevention for existing fleet of C-130/MH-65 aircraft and a must-have 
for future C-130Js. Additionally, $20M was appropriated in FY16 and 
planning is in progress to upgrade the Air Station's electrical supply 
system. The Coast Guard is planning to address liquid oxygen 
facilities, propeller shops, spare propeller and engine storage areas, 
with sufficient time for those improvements to be completed before the 
arrival of new C-130J aircraft.

                                  [all]

                  This page intentionally left blank.


      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
